<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: ENABLING INNOVATION IN THE NATIONAL AIRSPACE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: ENABLING INNOVATION 
                        IN THE NATIONAL AIRSPACE

=======================================================================

                                (115-8)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]            


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
        
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-242 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="284f5847684b5d5b5c404d4458064b474506">[email&#160;protected]</a>        
        


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  

                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
DUNCAN HUNTER, California            ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              CHERI BUSTOS, Illinois
BOB GIBBS, Ohio                      ELEANOR HOLMES NORTON, District of 
DANIEL WEBSTER, Florida              Columbia
JEFF DENHAM, California              DINA TITUS, Nevada
THOMAS MASSIE, Kentucky              SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
MARK SANFORD, South Carolina         MICHAEL E. CAPUANO, Massachusetts
ROB WOODALL, Georgia                 GRACE F. NAPOLITANO, California
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LaMALFA, California             Georgia
BRUCE WESTERMAN, Arkansas            RICHARD M. NOLAN, Minnesota
PAUL MITCHELL, Michigan, Vice Chair  PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Shelley J. Yak, Director, William J. Hughes Technical Center, 
  Federal Aviation Administration, accompanied by Marke ``Hoot'' 
  Gibson, Senior Advisor, Unmanned Aircraft Systems Integration, 
  Federal Aviation Administration:

    Testimony....................................................     6
    Prepared statement...........................................    48
    Responses to questions for the record from the following 
      Representatives:

        Hon. Frank A. LoBiondo of New Jersey, submitted on behalf 
          of Hon. Paul Mitchell of Michigan......................    57
        Hon. Peter A. DeFazio of Oregon..........................    63
        Hon. Rick Larsen of Washington...........................    66
Gregory S. McNeal, J.D., Ph.D., Cofounder, AirMap:

    Testimony....................................................     6
    Prepared statement...........................................    67
    Responses to questions for the record from Hon. Rick Larsen 
      of Washington..............................................    82
Sean Cassidy, Director, Safety and Regulatory Affairs, Amazon 
  Prime Air:

    Testimony....................................................     6
    Prepared statement...........................................    84
    Responses to questions for the record from Hon. Rick Larsen 
      of Washington..............................................    92
Calvin Clifford ``Trey'' Fayard III, Founder and Chief Executive 
  Officer, FLYGLO LLC:

    Testimony....................................................     6
    Prepared statement...........................................    93
Brian Whiteside, President, VDOS Global:

    Testimony....................................................     6
    Prepared statement...........................................    98
    Responses to questions for the record from Hon. Rick Larsen 
      of Washington..............................................   102
Michael P. Moses, President, Virgin Galactic:

    Testimony....................................................     6
    Prepared statement...........................................   103

                       SUBMISSIONS FOR THE RECORD

Statement of Air Line Pilots Association, International, 
  submitted by Hon. Rick Larsen of Washington....................   108
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 
BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: ENABLING INNOVATION 
                        IN THE NATIONAL AIRSPACE

                              ----------                              


                         TUESDAY, APRIL 4, 2017

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning, everyone. The subcommittee will 
come to order. I would like to thank you all for being here.
    Today the Aviation Subcommittee is holding the fourth 
hearing in preparation for the FAA reauthorization. This 
hearing will examine our continuously changing aviation system, 
which evolves with the introduction and growth of new 
technologies, innovative business models, and nontraditional 
users.
    Before we begin, I want to encourage all stakeholders and 
members of the public to send your ideas, thoughts, and/or 
questions on innovation in the aviation industry and FAA 
reauthorization to our dedicated email.
    It is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aedadccfc0dddec1dcdac8cbcbcacccfcdc5eec3cfc7c280c6c1dbddcb80c9c1d880">[email&#160;protected]</a> 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="693d1b08071a19061b1d0f0c0c0d0b080a02290408000547">[email&#160;protected]</a>
house.gov. We have had a number of people who have emailed in, 
and it is helpful for us to know what is on your mind.
    Since the turn of the millennium our aviation system has 
rapidly changed with the invention of new aviation technologies 
and new business ideas. For example, when Congress deregulated 
the airline industry in the late 1970s, the now familiar 
overnight delivery industry barely existed. The aviation 
industry of today is vastly different from what we saw even in 
the year 2000. Ten years from now, it will certainly look even 
a lot more different.
    The development of unmanned aircraft systems, or UAS, has 
been underway for more than a century, but only recently have 
UAS become widely and inexpensively available, thanks to rapid 
advances in technology. The sheer volume of UAS now operating 
in the national airspace--more than 750,000 units are 
registered, and they are just the ones that are registered--is 
redefining how aircraft operate in low-altitude airspace.
    Commercial space transportation has existed since 1989, but 
only in the last few years has it begun to evolve from a niche 
industry to a self-sustaining economic engine. Changes in the 
airline industry have altered the ways in which the traveling 
public gets from point A to point B. While many of these 
changes have been for the better, some communities have seen 
service decline or disappear altogether.
    In the wake of these changes, new companies are beginning 
to emerge to fill the void and restore connectivity between 
regional communities. As many members of this subcommittee 
represent small communities and rural areas, I am sure new 
business models that can better connect their districts to the 
air transportation system will be of particular interest. Such 
new business models, which fill the gap, have the potential to 
greatly affect the aviation system of the future.
    Maintaining American leadership in aerospace is a top 
priority for this subcommittee. Let me repeat that. Keeping 
American leadership is a top priority. As we all know, we 
cannot rest on our laurels. The benefits of technological 
advancement and the cost of complacency are too great.
    Cooperation between industry and Government is critical to 
maintaining the rapid pace of innovation necessary in aviation, 
and it is vital to building a 21st-century infrastructure to 
support users, new technologies, and new innovations in how to 
deliver air services and connectivity.
    The witnesses on our panel today represent the hundreds of 
thousands of talented Americans who push the boundaries of 
aviation technology and innovation and make the system far 
better for everyone.
    I am extremely proud to represent thousands of individuals 
who work at the FAA's Technical Center, the flagship for the 
FAA, which plays a critical and important role in the 
partnership between Government and industry. They are the 
cutting edge on research and development, safety, and security 
for the entire Nation. The Technical Center is a one-stop shop 
for the best and brightest to research, develop, demonstrate, 
and validate new aviation technologies and data sources.
    Just down the road, groundbreaking will soon take place on 
a new technology park on the grounds of the FAA that will allow 
private companies to leverage Technical Center resources and 
expertise, something we think will be a great advantage to all. 
This exciting project will greatly benefit the mission of the 
Technical Center and the Nation as a whole.
    We all know that innovation and change involve challenges. 
As the subcommittee is charged with ensuring the safety of 
aviation, we must take care that the innovation in airspace is 
achieved while ensuring the continued safety of that airspace.
    I look forward to hearing from our panel today about how 
Congress can enable continued innovation, ensure aviation 
safety, and build a 21st-century aviation infrastructure 
supporting both important goals.
    Before recognizing Ranking Member Larsen for his remarks, I 
would like to ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing and unanimous consent that the record remain open 
for 15 days for additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    I would now like to yield to Mr. Larsen for any remarks he 
may make.
    Mr. Larsen. Thank you, Mr. Chairman, for holding today's 
hearing on enabling innovation in the national airspace.
    This morning we are here to discuss the integration of new 
users, aerospace technologies, and business operations into the 
U.S. airspace. From modifying how business is conducted to 
creating new and previously unthinkable technologies that are 
changing how the airspace is used, innovation in aviation is 
pressing forward at a pretty rapid rate.
    Chairman LoBiondo and I have ensured that the topics we 
will explore today, such as unmanned aircraft and commercial 
space transportation, have been the focus of this 
subcommittee's oversight work in recent years. I look forward 
to hearing our witnesses' perspectives on how this panel can 
address these and other innovation-related topics in a long-
term and comprehensive FAA reauthorization bill this year.
    There is no denying the extensive public and commercial 
benefits of unmanned aircraft. This industry is particularly 
important to my home State of Washington, which is a thriving 
hub of aviation R&D. And as drones proliferate, so too do their 
applications. Drones are used to respond to natural disasters, 
for search and rescue, and for wildfire mitigation. They also 
complete safety-related work that manned aircraft cannot, such 
as the BNSF Railway drone that I had a chance to witness last 
year in Everett, Washington, which the company uses to inspect 
seawall integrity and railways.
    The drone industry has a massive potential to drive 
economic growth and create jobs here in the U.S. Industry 
groups estimate that by 2025, the industry may generate more 
than 100,000 jobs and billions of dollars in direct and 
indirect economic activity.
    A few weeks ago, the FAA released its latest aerospace 
forecast, projecting that the hobbyist drone fleet will triple 
in size from 1.1 million to 3.5 million units in the next 5 
years. Meanwhile, the commercial drone fleet is likely to 
multiply tenfold.
    Now, while the number of drones in the U.S. airspace grows 
it is critical that both commercial and recreational users 
operate these aircraft safely. Each month the FAA receives more 
than 100 reports of drone sightings, and the risks of 
collisions with manned aircraft, incursions with critical 
infrastructure, and mishaps over populated areas remain serious 
concerns. So I am pleased that last year's short-term FAA 
extension included a number of provisions on drone safety.
    Still, more must be done to match the pace of industry 
growth, and this panel has an enormous opportunity to move that 
ball down the field with the upcoming FAA reauthorization.
    I also look forward to hearing more about the progress in 
the area of commercial space transportation. This subcommittee 
held a long overdue hearing last summer on FAA's oversight of 
the burgeoning U.S. industry, which in 2015 was about $126 
billion, according to the FAA. The commercial launch of 
satellites is particularly important because of the range of 
capabilities offered from television and radio broadcasts to 
high-speed internet and weather forecasts. Additionally, space 
tourism is on the horizon and is expected to become a billion-
dollar market in the coming years.
    For American national security, among other reasons, it is 
critical that U.S. leadership in space transportation and 
exploration remain second to none. Now, if the pace of 
commercial space transportation and tourism increases as 
forecasted, the FAA will need adequate resources to oversee 
safe integration of these new technologies into the national 
airspace.
    So in closing, I hope to hear today about what Congress and 
the FAA can do to foster innovation in the use of the national 
airspace and to support the good ideas, while ensuring the U.S. 
airspace remains the safest and most efficient in the world.
    With that, Mr. Chairman, I yield back.
    Mr. LoBiondo. Thank you, Mr. Larsen.
    I would now like to turn to Chairman Shuster.
    Mr. Shuster. Thank you, Chairman LoBiondo, for holding this 
hearing today.
    The United States is the birthplace of aviation. We paved 
the way in modern aviation. We have innovated. The whole world 
follows our lead. And we need to ensure that we continue to 
hold that leadership in the world.
    New technologies have led to new airspace operations, such 
as unmanned aircraft and commercial space transportation 
operations, and these changes in the aviation industry pose 
both opportunity and challenges for aviation infrastructure. We 
must enable innovation and its integration while also 
maintaining a credible aviation safety record.
    Companies like Virgin Galactic, SpaceX, and Blue Origin are 
ramping up operations to make commercial space a regular part 
of our National Transportation System. SpaceX, in particular, 
is targeting 70 launches through 2019, a cadence of one launch 
every 2 or 3 weeks, and I have been told that somewhere into 
the 2020s, they are looking at going to a launch every day. We 
are quickly approaching what was once science fiction, which 
was once a science experiment--Mr. Larsen--which was once a 
science experiment.
    Mr. Larsen. I will write the rest of your speech.
    Mr. Shuster. Commercial space launches nearly every day, as 
I said.
    Currently, these launches and reentries take up massive 
amounts of airspace. With new technology, we can narrow those 
amounts that take up international airspace, and we must do 
that. Our aviation system and infrastructure cannot support 
these 21st-century innovations in commercial space and unmanned 
aircraft that we see likely coming.
    Amazon, for example, I have been told, and nobody will go 
on the record, I read somewhere the estimates were that Amazon 
was going to spend somewhere near $1 billion to help develop 
drones and test packages being delivered. Instead of them doing 
those tests here, they have gone to the U.K. because of our 
inefficient and burdensome regulatory process.
    And again, they won't give me an exact number, but I have 
got to believe it is in the millions of dollars that they are 
spending in the U.K., not in the U.S., because of the system we 
have here, the burdensome regulatory process which makes it 
very difficult, these research dollars and jobs that could have 
been here in the United States. We have to make sure we don't 
miss this opportunity going forward.
    So I look forward to today's hearing and hearing from our 
witnesses. We are now talking in Congress about building a 
21st-century infrastructure system, and one of the key parts of 
that is in aviation infrastructure that can support the 
innovation that is coming to us faster than we ever thought 
possible.
    And with that, I yield back.
    Mr. LoBiondo. Thank you, Mr. Shuster.
    Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman. This is an important 
hearing, and I think it will help instruct the committee as we 
move forward with the FAA reauthorization this year and provide 
further direction to the FAA on some of these matters.
    I am particularly pleased to have Mr. Brian Whiteside, 
president of VDOS Global, headquartered in Corvallis, Oregon, 
in my congressional district. He has a company that operates 
drones in support of a number of areas, including wildlife, 
monitoring emergency response. He also has put together a 
company that has a program called Drone Complier, which helps 
other commercial drone operators manage their fleets and comply 
with the Code of Federal Regulations.
    Mr. Whiteside, I look forward to your testimony. Thanks for 
traveling all the way out here. I am doing the trip almost 
weekly. I know it is not fun, so not easy to get to the Fourth 
Congressional District.
    We need to maintain America's lead in aviation and 
aerospace, and that is going to require a much more nimble and 
proactive FAA. It is going to require some specific direction 
from Congress. And I am looking forward to hearing interesting 
ideas here today on how we will do better and help keep our 
lead by not ceding the development of these new industries to 
our overseas competitors.
    I am also concerned that the--you know, I asked the FAA 
quite some time ago now, I said, ``What happens if you ingest a 
quadcopter into a jet engine.'' And they said, ``Gee, that is a 
good question. We don't know.'' So they went through a process. 
They hired a consultant. We were going to have the report in 
November. Now I hear maybe we will have it in April or June. It 
is pretty critical we know what is going to happen.
    I am very concerned about the abuse by some people. These 
are generally very casual recreational users who are operating 
outside the law. They have interfered with firefighting 
operations. We have had to ground planes because it is 
dangerous to be operating helicopters and small planes fighting 
fires when some idiot is taking videos with their drone. And we 
have had a number of reports from pilots.
    There was a provision that I got in the short-term 
authorization requiring the FAA to go forward with a pilot 
project, I hope to hear about that, to intercept or otherwise 
disable drones that are operating in controlled airspace. I 
know the technology exists. I have met with a company who has 
done it in a classified form for the military. We need to move 
forward with that.
    So, Mr. Chairman, thanks again for the hearing. I look 
forward to hearing from the witnesses.
    Mr. LoBiondo. Thank you Mr. DeFazio.
    I know we have a unanimous consent request from Mr. Larsen.
    Mr. Larsen. Thanks, Mr. Chairman. I ask unanimous consent 
that the written statement prepared by the Air Line Pilots 
Association, International, be entered into the record.
    Mr. LoBiondo. Without objection, so ordered.

        [The statement is on pages 108-111.]

    Mr. Larsen. Thank you.
    Mr. LoBiondo. I am very pleased today to welcome our 
witnesses. We have Ms. Shelley Yak, who is the Director of the 
FAA's Technical Center, which is in the Second Congressional 
District of New Jersey, my district. Ms. Yak is accompanied by 
Marke ``Hoot'' Gibson, senior advisor on unmanned aircraft 
systems integration, who has extensive experience with both 
military and domestic.
    We are pleased to have you both here today.
    Mr. Gregory McNeal, executive vice president and cofounder 
of AirMap. Mr. Sean Cassidy, director of safety and regulatory 
affairs for Amazon Prime Air. Mr. Calvin Clifford Fayard III, 
chief executive officer of FLYGLO. Mr. Brian Whiteside, 
president of VDOS Global. And Mr. Michael Moses, president of 
Virgin Galactic.
    I would like to remind all witnesses to do their best to 
limit their opening remarks to 5 minutes.
    Ms. Yak, you are recognized for your opening statement.

   TESTIMONY OF SHELLEY J. YAK, DIRECTOR, WILLIAM J. HUGHES 
TECHNICAL CENTER, FEDERAL AVIATION ADMINISTRATION, ACCOMPANIED 
  BY MARKE ``HOOT'' GIBSON, SENIOR ADVISOR, UNMANNED AIRCRAFT 
 SYSTEMS INTEGRATION, FEDERAL AVIATION ADMINISTRATION; GREGORY 
   S. MCNEAL, J.D., PH.D., COFOUNDER, AIRMAP; SEAN CASSIDY, 
  DIRECTOR, SAFETY AND REGULATORY AFFAIRS, AMAZON PRIME AIR; 
    CALVIN CLIFFORD ``TREY'' FAYARD III, FOUNDER AND CHIEF 
EXECUTIVE OFFICER, FLYGLO LLC; BRIAN WHITESIDE, PRESIDENT, VDOS 
    GLOBAL; AND MICHAEL P. MOSES, PRESIDENT, VIRGIN GALACTIC

    Ms. Yak. Good morning, and thank you, Chairman LoBiondo, 
Ranking Member Larsen, and members of the subcommittee. Thank 
you for the opportunity to appear before you today to discuss 
the work of the FAA's William J. Hughes Technical Center and 
the work of our 3,000 employees and contractors who facilitate 
new entrants, new users, and new technologies into the National 
Airspace System.
    The Technical Center is located in Atlantic City, New 
Jersey, and is the home of FAA's premier air transportation 
system Federal laboratory. My name is Shelley Yak. I am the 
Director of the Technical Center, and I also serve as FAA's 
Director of Research. Accompanying me today is Marke ``Hoot'' 
Gibson, FAA's senior advisor for UAS integration.
    Aviation is a vital resource for the United States. Civil 
aviation accounts for $1.6 trillion in total economic activity 
and supports 10.6 million jobs. To maximize the opportunities 
that the aviation industry provides while running the safest 
and most efficient airspace in the world, the FAA must not only 
maintain but continually improve the National Airspace System, 
or the NAS.
    In delivery of NextGen's operational capabilities and the 
sustainment of the NAS, the Technical Center's highly technical 
workforce conducts research, system development, and test 
solutions, and performs integration of FAA's spectrum of 
aviation systems. In other words, we keep the national airspace 
running while also building our future.
    The Technical Center is committed to ensuring that the 
United States continues to lead the world in embracing, 
implementing, and integrating new technology into the NAS 
safely and efficiently. We do this by engaging a workforce made 
up of world-class scientists, researchers, engineers, and 
computer scientists, and through collaboration and partnership 
with industry, academia, and other Government agencies.
    The work conducted at the Technical Center contributes to 
making aviation safer both at home and abroad. In addition to 
making aviation safer, we also make aviation more efficient. 
Key programs, such as traffic flow management, Automatic 
Dependent Surveillance Broadcast, and Data Communications, have 
all been developed, tested, or have begun their nationwide 
deployment at the Technical Center.
    Collectively, these programs are already producing 
operational efficiencies in the NAS. For example, DataComm has 
changed the way that air traffic controllers and pilots 
communicate. It supplements voice communications between air 
traffic controllers and pilots with digital text-based 
messages. DataComm is now operational in 55 air traffic control 
towers nationwide and is installed in 31 different types of 
aircraft.
    Greater efficiency also reduces the environmental impact of 
aviation. Aviation gas, or avgas, is the only remaining lead-
containing transportation fuel. To help get the lead out, the 
FAA is supporting the research of alternate fuels at the 
Technical Center. Testing of these fuels will culminate at the 
end of 2018 after flight testing is performed utilizing these 
fuels under a full range of atmospheric conditions.
    Aviation is constantly evolving, and today it is an 
especially exciting time with so many new applications being 
imagined and realized. This shows us that there will always be 
a need for applied research to respond to these changing needs. 
That is why we are conducting robust research around new 
entrants in the airspace, such as unmanned aircraft systems, or 
UAS, and more frequent commercial space operations.
    The FAA is working closely with its partners in Government 
and industry to evaluate UAS detection technologies. As 
directed in the 2016 FAA extension, the FAA has established a 
pilot program to evaluate some of these technologies, which has 
been tested in airport environments such as New York, Atlantic 
City, Denver, and we plan future testing in the Dallas Fort 
Worth Airport later this year.
    As we add new technologies into the NAS, we know that we 
must also be vigilant about cybersecurity. The FAA's 
Cybersecurity Test Facility at the Technical Center serves as a 
research and development lab for finding new ways to protect 
the NAS and the Nation's critical infrastructure from cyber 
risks and threats, and we are working with our national 
security partners, researching the protection of aircraft from 
these threats.
    As I mentioned earlier, it is through our collaboration 
with industry, academia, and other Government agencies that 
future aviation concepts are explored, and that is why I will 
conclude my remarks with an invitation to you to come visit us 
at the Technical Center. On May 15th and 16th we will be 
hosting a symposium in partnership with the Air Traffic Control 
Association and NASA. Our laboratory capabilities will be on 
display demonstrating the work that we do for NextGen, UAS, and 
commercial space.
    This is a great opportunity for you to see our technology, 
the work that we do, and to meet our employees, and see 
firsthand their commitment to ensuring the United States 
continues to lead the world in the development and 
implementation of aviation technology while operating the 
safest and most efficient aviation system in the world.
    Thank you. I will be happy to answer your questions at this 
time.
    Mr. LoBiondo. Thank you, Shelley.
    And let me just emphasize the invitation. The FAA Tech 
Center is unique in all the world. It is a national asset and a 
jewel of our aviation industry because of the laboratories and 
facilities that are there, but most importantly, because of the 
men and women who have unmatched dedication and skills that 
they put to keeping our aviation system the best in the world. 
So I would encourage all of you to see it firsthand.
    Mr. McNeal, you are recognized.
    Mr. McNeal. Chairman LoBiondo, Ranking Member Larsen, 
members of the committee, it is a pleasure to speak with you 
about the future of innovation in our National Airspace System. 
I am the cofounder of an aviation startup called AirMap that 
has grown from 2 employees in 2015 to 55 employees today. 
AirMap has offices in the U.S., Germany, and Japan. We are 
focused on developing technology solutions to today's most 
pressing issues facing the integration of drones in the 
national airspace.
    We provide airspace information and geofencing solutions to 
manufacturers, safety solutions for over 125 airports, and UTM 
[unmanned traffic management] solutions for ANSPs [air 
navigation service providers], and we are just getting started. 
I am very optimistic about the tremendous opportunity this 
committee has to foster innovation. It can do so by making 
clear what it expects from the FAA, when it expects it, and 
then providing the resources and support to allow the FAA to 
figure out how to achieve those goals.
    Each time Congress has done this, success has followed. 
Consider the FAA Modernization and Reform Act of 2012, which 
many of you participated in drafting. There, congressional 
action, with clear direction and mandatory deadlines, ensured 
that our infrastructure and agencies kept pace with innovation. 
It required an exemption process and ultimately set the stage 
for part 107.
    More recently, in the FAA Extension, Safety, and Security 
Act of 2016, Congress directed industry and the FAA to work 
together to create remote identification standards and a UTM 
pilot program, and we have seen work already begun on those 
initiatives.
    The trend line is clear. When Congress acts and directs 
outcomes with dates certain for their delivery, innovation 
takes flight. I am confident this policy approach works because 
I have witnessed firsthand how change agents within the FAA are 
making innovation happen. Specifically, the UAS Integration 
Office, under the leadership of Earl Lawrence, has a defined 
and understandable roadmap and has shown a willingness to 
collaborate with industry.
    The Air Traffic Organization PMO [Project Management 
Organization] is rolling up their sleeves in working to move 
the LAANC [Low Altitude Authorization and Notification 
Capability] program forward. NASA and the FAA's Research 
Transition Team are enormously collaborative and are providing 
a construct for the future, and General ``Hoot'' Gibson has 
been a true leader and facilitator of constructive dialogue.
    So what can Congress do to ensure innovation continues to 
support these change agents at the FAA?
    First, Congress must make clear that issues of innovation 
and safety are intertwined. We will oftentimes hear officials 
speak about how other nations can move faster because their 
airspace is not as complex as America's, but other nations are 
moving faster in the area of automation, and automation is the 
answer to complexity. Without automation, the existing system 
cannot handle the present volume of users, let alone the 
projections for the future.
    Second, sustained attention from Congress is necessary 
because Government, both on the Hill and in agencies, is not 
good at predicting the future. Recognizing this reality will 
lead this body to regularly adjust and sometimes accelerate 
agency timelines.
    Third, we must recognize that rapid change will be a 
regular feature of the next 100 years of transportation policy. 
That reality will require rapid adjustments from Congress and 
sustained direction in oversight of agencies. What was correct 
2 years ago may no longer be correct today.
    In light of this reality, what are some concrete steps for 
Congress to take?
    First, Congress must expand on section 2208 of the FAA 
extension to ensure that the FAA operationalize a multivendor 
UTM system by 2020.
    Second, Congress should take a federalism approach to low-
risk operations in the very low-altitude airspace. This will 
encourage competition and innovation amongst the States.
    Third, Congress should continue to direct the agency to 
work with industry standards bodies rather than through 
rulemaking. Industry standards are fast, flexible, and take 
account of the most recent advances in technology.
    Fourth, Congress should make clear an altitude below which 
States can assist in the regulation of low-altitude operations 
with reasonable time, manner, and place conditions in the same 
way we regulate constitutionally protected speech, with 
operations above that line being the exclusive domain of the 
FAA.
    Similarly, Congress should declare training and aircraft 
certification falls within the exclusive domain of the FAA. A 
failure to clarify this dividing line will result in a 
patchwork of judicial decisions that will doom the industry and 
State and local governments to decades of litigation.
    Only congressional action with clear direction, deadlines, 
and resources has ensured that our infrastructure and agencies 
keep pace with technology. To that end, Congress must make 
clear that issues of innovation, automation, and safety are 
intertwined. Congressional action can ensure that America's 
infrastructure keeps pace with advances in industry and the 
globally competitive marketplace.
    We look forward to continuing to support your work and the 
work of the FAA. Thank you.
    Mr. LoBiondo. Thank you, Mr. McNeal.
    Mr. Cassidy, you are recognized.
    Mr. Cassidy. Good morning, Chairman Shuster, Ranking Member 
DeFazio, Chairman LoBiondo, and Ranking Member Larsen, and the 
subcommittee members. Thank you very much for the opportunity 
to testify today. My name is Sean Cassidy, and I am the 
director of safety and regulatory affairs at Amazon Prime Air, 
which is our drone delivery service.
    As a commercial pilot for nearly 20 years and a former 
first vice president and national security coordinator for the 
Air Line Pilots Association, I am very familiar with the 
complexity of the National Airspace System and the 
responsibility all stakeholders have when it comes to safely 
integrating unmanned aircraft systems, otherwise known as UAS 
or drones.
    UAS has the potential to revolutionize the way businesses 
operate across a broad range of industries, including package 
delivery. We appreciate this committee's commitment to ensuring 
the United States realizes the tremendous benefits of this 
technology in a safe, secure, and expeditious manner.
    Amazon Prime Air is a service designed to safely and 
efficiently deliver packages to customers in 30 minutes or less 
using drones. Flying below 400 feet and generally above 200 
feet, except for takeoff and landing, our electrically powered 
drones are environmentally friendly, and most importantly, they 
are safe. They utilize sophisticated equipment, including 
automated onboard sense-and-avoid technologies to ensure safe 
operations at distances well beyond the visual line of sight of 
the operators, or to use your term, Mr. Larsen, we take the 
unthinkable and we make it thinkable and we make it safe.
    We have test and development centers in multiple countries, 
and we began private customer trials in the U.K. last year 
where we conducted our first drone delivery in December of 
2016. And with the assistance of the FAA, I am proud to 
announce that in March 2017, we conducted our first Amazon 
Prime Air delivery demonstration in the United States.
    We have also committed to join NASA, the FAA, and the 
Nevada Institute for Autonomous Systems in the upcoming 
unmanned traffic management demonstration in Reno later this 
spring.
    The United States is a leader in UAS technology, and if we 
want to remain at the forefront, there are three actions that 
we recommend Congress and the committee and the FAA take.
    First, expedite the building blocks necessary to address 
the safety and security concerns that are delaying rulemaking.
    Second, introduce the means by which commercial operations 
can be conducted beyond line of sight to include package 
deliveries.
    And third, to create an expedited performance-based 
airworthiness and certification pathway for commercial UAS.
    Let me briefly touch on these recommendations.
    To start off, the safety and security of the airspace and 
people on the ground is paramount, which is why Amazon is 
working with NASA, the FAA, and industry to create a highly 
automated unmanned traffic management, or UTM system.
    While the FAA retains safety and policy oversight, industry 
can help build and manage the system at minimal cost to the 
Government. In the near term, there is an urgent need to 
quickly implement Remote ID and tracking technologies to 
address the security concerns that have stalled FAA's UAS 
rulemaking. Amazon supports these efforts, and we look forward 
to helping the FAA identify inexpensive and readily available 
solutions, such as WiFi and cellular communications. They can 
be quickly and effectively implemented.
    It is also important that Congress and the FAA advance 
regulations that provide national uniformity. Hundreds of drone 
bills have been introduced around the United States, and many 
conflict with the FAA's ability to regulate aviation safety.
    Secondly, although the FAA's part 107 rules were an 
important first step in enabling commercial UAS operations, 
they also came with significant restrictions. In fact, the rule 
specifically prohibits beyond-line-of-sight package delivery in 
air carrier operations. We are eager to work with Congress and 
the FAA to enable beyond-line-of-sight commercial operations in 
the U.S. similar to the customer trials we have in the United 
Kingdom. This will help us demonstrate they be conducted safely 
and inform future regulatory activities.
    This brings to me to my final points. Given the dramatic 
growth of this new commercial sector of aviation, the drone 
industry needs a regulatory pathway specific to UAS commercial 
operations and airworthiness certification. Therefore, we would 
like the committee to once again include language in the FAA 
reauthorization bill calling for a drone air carrier 
certification process for commercial beyond-line-of-sight 
operations.
    In conclusion, we applaud Administrator Huerta for 
recognizing that when it comes to this exciting new industry we 
need regulation at the pace of innovation. We look forward to 
following through with that commitment. We look forward to 
working with Congress and the FAA and all stakeholders to 
address these important issues.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    Mr. LoBiondo. Thank you, Mr. Cassidy.
    Mr. Fayard, you are recognized.
    Mr. Fayard. Chairman Shuster, Ranking Member DeFazio, 
Chairman LoBiondo, Ranking Member Larsen, and members of the 
Aviation Subcommittee, my name is Trey Fayard, and I am the 
founder and CEO of FLYGLO LLC, based in New Orleans, Louisiana. 
On behalf of myself and my company, thank you for the 
opportunity to come before you today and testify.
    I come before you today to present what we believe is an 
innovative model of air service for the consumer and business 
traveler that is meant to complement current existing air 
carrier operations.
    GLO launched In November 2015 as an indirect air carrier to 
provide air transportation services to inadequately served 
cities in the gulf and Midsouth region. Currently, GLO flies 
regularly scheduled nonstop service to Shreveport, Louisiana; 
Memphis, Tennessee; Huntsville, Alabama; Little Rock, Arkansas; 
and Fort Walton Beach, Florida.
    As the members of the committee likely may know, in the 
late 1990s legacy airlines largely shifted from flying from 
smaller cities to major hub cities and formed partnerships with 
regional carriers for short-haul operations. Though profitable, 
this left a gap in nonstop services between mid-market cities. 
Granted, there are small airlines that currently operate to 
small communities; however, they are often subsidized via the 
EAS program as an example.
    GLO, however, is different. First, unlike other commercial 
air programs, our model does not rely on Government subsidies. 
We are 100 percent free-market driven, and revenue is 100 
percent based on passenger demand.
    Second, we have been able to create very good paying jobs 
in communities that often struggle to do so. We currently 
support approximately 70 employees with an average salary of 
$43,000 a year, with some, like our more skilled mechanics, 
making almost six figures.
    Third, the demand is there. Not only do we believe the gap 
in service to these mid-markets has huge potential, we know 
that it fosters economic development in the regions that we 
serve.
    Importantly, our small but growing route network will carry 
almost 4,000 passengers this month alone. By way of comparison, 
I would ask the committee to please keep in mind we started 
with zero.
    You may be wondering why aren't there more GLOs or GLO-type 
service providers in the United States, or how can my community 
attract GLO or its own GLO type of service. Like all 
industries, barriers to entry exist, but in the aviation 
services industry, as you likely well know, those barriers are 
extremely high.
    To that end, in this age of consolidation of legacy 
carriers, we would ask the committee to consider the hurdles 
and challenges of gaining entry into the world of commercial 
aviation and air travel and how easing these barriers of entry 
can not only make new service providers like GLO more 
complementary to existing operations, but also serve the 
American public.
    First, access to capital is critical and venture capital is 
expensive. Aviation is a complex business, including tremendous 
working capital requirements, unique payment terms, and 
constant battle to right-size cost structures and fare 
offerings to appropriately match the demand.
    GLO currently occupies a sort of hybrid model between mega 
charter broker and direct air carrier. We are technically a 
public charter operator. Our flights are regularly scheduled, 
and our fleet is dedicated to our exclusive use.
    Currently, GLO is in the process of seeking our own part 
135 certification to operate as a direct air carrier. However, 
despite our unique and proven model, regulatory structures are 
not favorable to new entrants.
    GLO is a very small entrepreneurial startup. Accordingly, 
in our first year of operations, GLO's early investors and 
GLO's team have invested substantial cash and sweat equity into 
proving the founding concept and preparing GLO for future 
growth. We do not have the backing of a parent company and thus 
we are exposed to tremendous financial risk as we move towards 
certification.
    We would ask the committee to consider streamlining the 
certification process if we are to continue promoting 
investment in aviation, such as keeping fees and taxes low. Any 
increase in tax or fees, such as the passenger security fee, 
necessarily increases the total cost of tickets. These changes 
disproportionately affect smaller carriers like GLO. This is 
something we wish to avoid so as to encourage air travel versus 
other means of transportation in these underserved areas.
    In conclusion, we would ask the committee to consider these 
challenges and create legislation that will encourage new 
entrants like GLO to the aviation services industry, thereby 
creating high-quality, good-paying jobs, bring innovation to 
the sector, and promoting free market and choice for the 
consumer.
    We need your help. We are very honored to have been able to 
be here today to provide you with some of our thoughts in your 
mission to bring safe, affordable, quality air service to the 
American public. I am happy to take any questions on how you 
all can support efforts to remove barriers to entry, increase 
access to capital, along with streamlining the certification 
process, and also, as well, keeping the fees and taxes low for 
the consumer.
    On behalf of my entire company, thank you again for your 
time. It has been an honor to testify.
    Mr. LoBiondo. Thank you, Mr. Fayard.
    Mr. Whiteside, you are recognized.
    Mr. Whiteside. Good morning. Thank you. Mr. Chairman, 
members of the committee, thank you for allowing me to testify 
before you today. My name is Brian Whiteside. I am the COO of 
Complier Enterprise and the president of VDOS Global.
    The goal of my testimony today is maybe to bring a little 
perspective to what a drone operator actually looks like. We 
have heard a lot about companies and corporations, but I would 
like to share with you a little bit more about the details of 
what it means to be an actual operator using drones and this 
technology in today's environment. And I would also like to 
bring to you maybe a little perspective on where we are today 
and why this technology is so important to us and the community 
and to our future as a Nation.
    First, our company. We provide basically three tiers to the 
stool of what we operate. We have software, which is our drone 
complier and safety compliance management system; we have our 
services; and we have our training.
    As a company, we have 23 employees, we are based in Oregon, 
and we are split between the United States and Australia. We 
have trained over 1,000 pilots and certified them through the 
CASA certification program in Australia, and our software was 
just selected as the official compliance app for the sub 2-
kilogram class of UAV operators in Australia.
    As an operating company, we work mostly in the energy and 
environment sectors. We work with energy producers, such as 
Shell Oil, Exxon. And then on the environmental side, we 
support operations in wildlife monitoring for entities such as 
World Wildlife Fund and other companies that are pursuing 
interesting operations such as wildlife tracking and against 
animal poaching. One of the most interesting programs that we 
worked was actually testing a payload that has helped defeat 
elephant poachers in Africa.
    Use of our software includes numerous universities and 
corporations who are standing up their operations and don't 
quite understand the complicated Federal aviation regulations 
and how do they need to comply with and be ensured that they 
are not going to be in violation of the law.
    The world that we live in today is changing dramatically. I 
know that we have all talked about the technical side, but 
there is a human side to this as well. And I have brought with 
us four images that I would like to share with you about what 
actual drones do and what they can supply. So if we can bring 
the images up.
    So that first image there, that is Seth Johnson. He is our 
chief pilot, and that is a drone operator. He is a former 
Horizon Airline pilot. He has got his ATP. He is also our chief 
instructor. He is holding in his hand a drone that is called 
the Aeryon SkyRanger. The Aeryon SkyRanger is built in Canada. 
Unfortunately, we don't have any U.S. systems that can meet our 
demand.
    Next slide.
    That is a flare stack. That is an image of what drones do 
when we are out there doing flare stack inspections offshore in 
the Gulf of Mexico. Our company was the first company to be 
legally authorized to fly commercially in the U.S. to do flare 
stack inspections and actually to do refinery inspections.
    The drone itself allows us to get close to that flare stack 
and take the images and do the inspections on corrosion and 
other material deformities that may occur when you do those 
inspections.
    To give you an example of the value that brings, when you 
do a flare stack inspection, a production platform has to shut 
down for about 3 days to let that stack cool if you are going 
to do an inspection by a human. That is a loss of $16 million 
to $18 million a day in production revenue when they have to 
shut down that flare.
    With a drone we can do it, obviously, live while the flare 
is burning. So it is a significant value to that company as we 
are doing those inspections.
    Next slide.
    That is up in the Arctic. Our first actual commercial work 
began up in the Arctic Ocean where we were doing some cetacean 
research in trying to detect whales and could drones be used in 
that environment to help do the research necessary to build new 
offshore oil production in the Arctic.
    And the last slide.
    And that is a bowhead whale. Bowhead whales are a species 
up in the Arctic that are very dependent upon--or actually the 
climate is significantly affected and impacted by what is going 
on in the world today. The bowhead whale is a significant 
source of resources and food for the Arctic native cultures, 
and this is an area where we are doing a lot of research and 
support, and the drone provides a great technology to actually 
go out and study these animals.
    But more important to the point now as we conclude is why 
is this important. The children of today are looking at 
technology in ways that are radically different than anybody in 
this room can understand. We are closer now to the year 2030 
than we are to 9/11, and if you think of in terms of what does 
that mean from a technological advance or change standpoint, we 
are going to go through radical revolutions in the next 10 to 
15 years.
    I have an 8-year-old and a 10-year-old. By the time they 
are 16, driverless cars will be a reality, and they are going 
to look at technology radically different than any one of us in 
the room can appreciate. They will trust technology and look to 
technology as a safety enhancement more so than they will look 
at their own skills and capabilities.
    That radical mind shift is something that all of us in this 
room really don't appreciate, and that is only about 3 to 4 
years away. We have to make sure that the laws that we create 
today understand the radical change that is coming and how we 
as a culture and a society are going to depend upon technology 
going forward, and that technology and that shift will happen 
in this next generation.
    Thank you.
    Mr. LoBiondo. Thank you, Mr. Whiteside.
    Mr. Moses, you are recognized.
    Mr. Moses. Chairman LoBiondo, Ranking Member Larsen, 
Chairman Shuster and Ranking Member DeFazio, members of the 
subcommittee, thank you for the opportunity to testify today 
and provide some information on our company's activities, 
particularly our particular use of the national airspace, and 
as you consider this very important topic of enabling 
innovation and revolutionizing the airspace and the 
infrastructure supporting it.
    I am the president of Virgin Galactic, and our company will 
operate a suborbital spacecraft for the purpose of space 
tourism and research to be based at Spaceport America in New 
Mexico. But I also am here representing our two sister 
companies. The spaceship company is based in Mojave, 
California, and is our manufacturing arm, building and testing 
this suborbital space transportation system; and Virgin Orbit, 
based in Long Beach, California, is developing and 
manufacturing a dedicated launch platform to place satellites 
into orbit.
    We have over 700 employees, but all 3 of our companies 
share a common vision: to open space to change the world for 
good.
    Next slide.
    So our system consists of two vehicles. The WhiteKnightTwo 
is our mother ship. It is a four-engine dual-fuselage jet 
aircraft capable of very high attitude, very heavy lift 
missions. And our suborbital space plane is called 
SpaceShipTwo, designed to safely and routinely transport people 
and payloads to space and back. SpaceShipTwo will carry two 
pilots and as many as six space flight participants to space 
altitudes where they can float about the cabin in zero gravity 
and see the Earth from space. In its research configuration, 
SpaceShipTwo can carry about 1,000 pounds of science and 
technology payloads.
    Next slide.
    Our vehicles form what is called a hybrid launch system 
involving both an aircraft and a rocket-powered vehicle. Virgin 
Galactic was pleased to receive its operator's license for this 
system from the FAA's Office of Commercial Space 
Transportation, AST, last year. This award was the culmination 
of years of interaction with the FAA and required indepth 
reviews of vehicle safety, design, flight trajectories, and 
operations plans. The leadership and commitment of AST was very 
vital to our success and our continued future in this space.
    Virgin Galactic coordinated heavily with ATO, the Air 
Traffic Organization, and local air traffic control centers to 
receive letters of agreement in order to define our operations 
in the airspace. That coordination will continue prior to every 
flight to ensure minimal disruptions.
    Specifically, WhiteKnightTwo will climb to a release 
altitude of near 50,000 feet in under 50 minutes, following 
preplanned routes and under the direction of local air traffic 
control.
    Next slide.
    At that altitude, SpaceShipTwo is then released--next 
slide--lights the rocket motor, and turns straight up, 
accelerating to Mach 3 on the way to space. This flight 
trajectory of SpaceShipTwo occurs completely within the 
restricted airspace, both Mojave and at Spaceport America, and 
takes about 20 minutes from release back to landing--next 
slide--landing back at the same airfield we took off from 
earlier.
    In addition to the human space flight program, Virgin 
Galactic's sister company, Virgin Orbit, is aiming to provide 
dedicated, responsive, affordable launch services for small 
satellites.
    Next slide.
    The small satellite market is experiencing remarkable 
growth around the world, and to help this revolution, Virgin 
Orbit is developing the LauncherOne platform dedicated to 
lowering the cost and increasing the frequency of launch for 
payloads under 1,100 pounds.
    Next slide.
    Similar to the spaceship program, this system is air 
launched, carried aloft under the wing of a modified 747-400 
aircraft, and will also operate under an AST license using 
similar protocols with ATO and ATC on the way to the launch 
point.
    Next slide.
    As you all know, the commercial space industry is not a 
future market. It is a present and thriving industry and will 
only continue to grow, as your opening remarks so elegantly 
stated. While this hearing is about new entrants into the 
airspace, and our air-launched space vehicles do indeed 
represent a very new approach to launch, I am reminded that the 
space industry has been sharing airspace with the commercial 
aviation industry for over 50 years without incident and 
ideally with very little impact.
    The number of commercial launches will continue to grow as 
the industry does, and this drives the need for very efficient 
and very well-defined processes, as well as the advancement of 
tools and technologies to help streamline the integration of 
commercial space with other users.
    One example is the current process used to get a letter of 
agreement, a LOA, through the FAA. With multiple launch points, 
that process for us can become exceedingly lengthy, sometimes 
involving multiple conversations with multiple elements of 
multiple FAA centers. A streamlined process with a simplified 
one-stop-shop interaction would be a very great improvement.
    An example of technology development can be highlighted by 
the collaboration of Virgin Galactic, the FAA, AST, and Embry-
Riddle Aeronautical University to test the ADS-B transmitters 
on our ShaceShipTwo, to demonstrate the applicability of this 
technology for tracking commercial spacecraft returning from 
space to help seamlessly integrate with air traffic control and 
the tracking tools already under existence.
    So in closing, I think we encourage the FAA to continue to 
develop the NextGen tools with an eye towards the future that 
helps minimize airspace impact and access as routine space 
access expands. So I look forward to working with the committee 
and the FAA, and I thank you for the opportunity to speak with 
you. Look forward to your questions.
    Mr. LoBiondo. Thank you.
    I don't know, Mr. Larsen, if I am allowed to say this, but 
you have one of the first seats reserved on Virgin Galactic 
space mission.
    Mr. Larsen. Is that right?
    Mr. LoBiondo. Representing the committee.
    Mr. Shuster. I can't wait till he goes.
    Mr. LoBiondo. Whoa.
    With that, Mr. Shuster.
    Mr. Larsen. I object.
    Mr. Shuster. Well, you know, you are the only other guy 
from the town of Everett in Congress, so we have got to bond.
    I thank all of you for being here. I appreciate hearing 
your testimony, although it is a bit dismaying to hear all the 
problems that you face and the FAA is not able--the Federal 
Government and the agencies are slowing what you are doing, 
what you are trying to develop down.
    Mr. Fayard, my question is to you. I represent a rural 
district, and I have one airport, the Altoona-Blair County 
Airport. It is a town of about 56,000 people and it probably 
services about 200,000 people. So I am always concerned about--
we have, I think, three flights a day in and out of there. It 
is an EAS operation. And I have been talking to another company 
similar to yours, OneJet.
    Mr. Fayard. Sure.
    Mr. Shuster. It is operating out of Pittsburgh. And their 
business model sounds very similar to yours.
    So you talked about it in your testimony about what 
Congress can do. You talked about access to capital. Can you 
talk a little bit about that? And can you talk about the other 
things specifically that we in Congress can do to help people, 
companies like yours and OneJet, to be able to service those 
communities that have seen diminished air service over the past 
decade?
    Mr. Fayard. Sure. Again, thanks for the questions.
    You know, access to capital, I think, is not unique just to 
the airline business. Any startup business is going to have 
that issue to try to bridge that gap.
    Local buy-in, local participation from the communities is 
very, very important, for example, in your district. We look at 
some rural markets like Little Rock. They have completely 
bought into our service. Not only do they use it and support 
it, but they are very supportive of that service. And of 
course, at the end of the day, if people don't show up, the 
service will go away if it is not sometimes subsidized.
    So from our perspective, the more GLO-type operations there 
are, the better. I do know the folks at OneJet very well, and 
they are providing a similar but yet a little bit different 
model than ours. As the legacies have consolidated, they are 
creating a very large underbrush of opportunity, and what we 
believe for our model is it is perfect.
    We would like, as you mentioned about receiving our own 
certification, let me just be clear that the FAA and the DOT 
are really good folks, they are good friends, they are good 
partners. They really do try to help us.
    They are hamstrung lots of time by resources not being 
available. They are hamstrung by lack of personnel to help us 
complete the processes which we have to go through. And I am 
not suggesting that it is their fault. It is not. They need to 
be properly funded so they actually execute what they need to 
do in order to help a company like GLO.
    We look at the smaller markets as really, as I mentioned, a 
really good opportunity for growth for us because the average 
gauge of an aircraft has gone to almost 100 seats now, and we 
fly 30-seat aircraft.
    Mr. Shuster. You fly 100-seat aircraft?
    Mr. Fayard. We fly 30-seat aircraft.
    Mr. Shuster. I am sorry?
    Mr. Fayard. Thirty, 3-0. The average gauge of a commercial 
aircraft is approaching 100 seats. So when you look at markets 
that couldn't support, say, a 50-seat regional jet 3 or 4 times 
a day to a hub, as those jets get larger and larger, you can 
see how the air service is going to get worse and worse in our 
estimation. I should say more opportunity for us because those 
markets are all going to increase. We think there are about 400 
markets out there right now that could support a GLO-type of 
service.
    Mr. Shuster. What size of market would that be? What 
service area, population-wise, would be something you would 
look as a sweet spot for you?
    Mr. Fayard. Forget the actual confines of the metro--of the 
city. If you look at a metro area of 200,000--150,000, 200,000 
people, that is sort of where you start looking at where a 
regional model service starts to make some sense. That being 
said, we are in smaller markets than that sometimes. I mean, 
Huntsville, if you look at the actual city, Huntsville, 
Alabama, is a couple of hundred thousand folks, but the actual 
city is quite small.
    Mr. Shuster. Let me ask you this specifically, as my time 
is running out. So when you fly--give me, do you fly from 
Little Rock to----
    Mr. Fayard. New Orleans and Fort Walton Beach.
    Mr. Shuster. So if somebody wants to connect to American or 
whoever services New Orleans, is that easy, is that an easy 
transition to connect from you to get on an American flight if 
they want to go to L.A.?
    Mr. Fayard. Yeah, absolutely. In fact, we have several 
customers that self-connect, make their own connections, 
frankly. There is a flier in Shreveport I met the other day 
that flies down every week to New Orleans and hops onto 
Southwest to Tampa. That is where she works.
    So we do do some of that. At the moment we do not have 
codeshare agreements in place with other air carriers. But it 
is quite simple. If you were to, you know, wish to come to New 
Orleans, which has fairly decent air service, as opposed to 
Shreveport, Little Rock, which does not, yes, those 
opportunities exist. In fact, we just got another customer 
self-connected themselves to our new London Heathrow from 
British Airways. They flew in from Little Rock, hopped on the 
BA to London. So that is occurring.
    Mr. Shuster. And final question to you. Is your business 
model--I know OneJet, they want to franchise to different 
cities. Is that your model or do you want to----
    Mr. Fayard. I think it is similar. You know, if you look at 
New Orleans as our current home base, if you will, there are 
only so many opportunities that exist with the gauge limitation 
of the aircraft, because all aircraft have limitations, right?
    Mr. Shuster. Sure.
    Mr. Fayard. And so as you kind of build out New Orleans, 
yes, the next logical step is to march this model--I call it 
the starburst pattern of service--to Little Rock, or is it 
Birmingham or is it Charleston, is it Huntsville, you know, 
those types of markets that really have the need for that 
service.
    Mr. Shuster. OK. Thank you very much, Mr. Chairman.
    Mr. Fayard. Thank you.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Ms. Yak, thanks for coming today to testify. And I want to 
echo my colleague's comments about the people he represents and 
just say how thankful we are that the Technical Center is there 
and they are doing great work, and please extend that onto them 
on my behalf as well.
    So either for you or Mr. Gibson, if you can help me out a 
little bit and explain how the FAA's current lines of business 
coordinate together in our quest to integrate drones safely 
into the airspace. How does that currently work?
    Mr. Gibson. Thank you, Congressman. If I understood your 
question, across lines of business within the FAA?
    Mr. Larsen. Right, within the FAA, yeah.
    Mr. Gibson. Yes, sir. I think it works well. We can always 
improve things. But when I first arrived in September of 2015, 
at that time the Deputy Administrator, Mr. Whitaker, and myself 
sat down after I had observed for a couple of months and I 
thought there could be better balance within the headquarters 
as far as moving the technology forward. We had been focused on 
the vehicle and the designs, and we needed to bring the 
operators and folks on board to include training and awareness.
    So we have since established what we call a UAS board, 
which is attended by all the lines of business and the senior 
folks and conducted by the Deputy Administrator, sometimes the 
Administrator himself, to tee up key issues and focus just on 
UAS. So I think we made a lot of progress over the last 12 
months.
    Mr. Larsen. So what would be the next step then?
    Mr. Gibson. Well, I think we continue that process of 
awareness and integration across the headquarters. I think the 
other piece that we are doing--really two--one is Federal 
integration. So I actually chair an activity called the UAS 
EXCOM. It was established in 2009 language. And it is quite 
robust now. We have added a number of memberships, to include 
the National Security Council, Office of Science and Technology 
Policy, but also the industry. And we have pushed out, as you 
may or may not know, the DAC, the Drone Advisory Committee, to 
engage with that portion.
    So that gives us a pretty good balance both within the 
building, if you will, the headquarters, across our Federal 
partnerships, and then engaged heavily with industry--not just 
industry, but private sector.
    Mr. Larsen. So what would be, in that sense then, what have 
been the products of that work? In other words, if you were to 
ask folks here at the other end of the table, what would they 
point to as the product of that work?
    Mr. Gibson. Well, the product within the building, of 
course, has been part 107, and the work that we have begun with 
Ops Over People, originally known as the micro rule, many of 
the waivers, exemptions. So we have stepped across boundaries 
within the headquarters.
    I think on the Federal side, I am also heading up the 
counter-UAS, or the 2206 effort, and there have been countless 
efforts made there with DHS and DOD. And I know I have multiple 
meetings again next week. Our next meeting is June 9th on that. 
So there has been a clear engagement on that.
    And then the DAC is now past its first two initial meetings 
and the subcommittee has been established and we have three 
working groups that are working on many of the issues that no 
doubt interest the committee.
    Mr. Larsen. So, Ms. Yak, I understand that the Technical 
Center has been involved in testing for two--probably several--
but two key NextGen programs, DataComm and ADS-B. Can you share 
what this testing has revealed?
    Ms. Yak. Thank you for the question.
    NextGen--you had talked about ADS-B and DataComm, were the 
two?
    Mr. Larsen. That is right.
    Ms. Yak. We are very proud of being involved in both of 
those programs. DataComm, we do have a laboratory. We have been 
responsible for developing the testing procedures on DataComm, 
which is in what we would call an end-to-end process. DataComm 
interfaces with many, many different systems, including the 
aircraft itself, as well as ERAM, for example.
    So the laboratory integrates at the Technical Center with 
these systems, and we were able to, using antennas on our roof, 
simulate the end-to-end testing with DataComm. So that is 
exciting. The rollout has been going out wonderful.
    ADS-B we started many, many years ago, about 2014 or so. We 
were involved in the research as well as the testing. Our own 
aircraft tested the capability. And we were part of the 
rollout, and that has been a very successful rollout and is 
operational for quite a while now.
    Mr. Larsen. Good. Thank you.
    I yield back. Thank you.
    Mr. LoBiondo. So for Ms. Yak and Mr. Gibson, can you please 
describe the work that is being done at the Tech Center to 
support and validate the unmanned efforts by your fellow 
panelists? And to the other panelists, could you give us some 
comments on what your experience is in working with the Tech 
Center with UAS experts and how that is all integrating into 
what you are doing?
    Ms. Yak. OK. I will go first and then I will hand it off to 
Mr. Gibson.
    So the work at the Technical Center for UAS integration has 
been on both small and large vehicles. And it includes 
operational concepts, developing system requirements, 
integration and field testing, as well as establishing 
laboratory capabilities.
    For instance, the Tech Center has a UAS laboratory, and we 
have it linked with our DOD and our NASA labs, and this is 
where we conduct human-in-the-loop simulation.
    Mr. LoBiondo. Excuse me. Did you say DOD and NASA?
    Ms. Yak. NASA.
    Mr. LoBiondo. NASA. OK.
    Ms. Yak. That is correct.
    And we have done human-in-the-loop simulations that have 
integrated UAS data in with our NAS systems. We are also very 
much involved in the UTM research. We have members on our 
Research Transition Team for UTM--it is UAS traffic 
management--and they are involved in concept development as 
well as data exchange and information architecture, 
communication and navigation, as well as sense and avoid.
    Our research performers are also working on UAS detection 
at the airport. We will probably talk about that a little bit 
more. And we are developing the test suite for the final 
certifications of new systems in regards to command and control 
and data link. So those are a lot of the technical sides of 
what we are doing.
    And, Mr. Gibson, if you can take it from there.
    Mr. Gibson. Mr. Chairman, as you know, I am involved, as I 
mentioned, in a lot of the counter-UAS work that has been 
underway. We started through the Tech Center at Atlantic City 
and expanded on that. They have been the program managers for 
me and they have been deeply involved in all the planning, 
setup, and soon to be all the data deconstruction so that we 
can come out with some minimum performance standards. So that 
includes--Denver has been in that. We worked with the FBI at 
JFK. And our next test will be at DFW towards the end of the 
month. That will be our last large test of those systems, the 
airport protection systems. And they have been wonderful to 
work with in that and provided a lot of the engineering 
background.
    Mr. LoBiondo. Any of our other panelists, have you had 
experience in working with the Tech Center and could you talk a 
little bit about that?
    Mr. Cassidy. Yes, sir. Thanks for the question.
    I am glad you mentioned the RTT [Research Transition Team], 
because that is one of those fundamental building blocks that 
we have been working with, in partnership with the FAA, on 
especially programs such as data exchange, which allow for the 
exchange of information between aircraft, which then can be a 
form of managing safe airspace access and also being aware of, 
you know, where the other vehicles are in the same kind of 
volume of airspace. So it is a great activity that is hosted by 
the FAA.
    Mr. LoBiondo. Anyone else?
    Mr. Moses. No.
    Mr. LoBiondo. So timing-wise, I don't have enough time for 
my next question on cybersecurity, but we will come back to it.
    So now, Mr. DeFazio, are you ready?
    Mr. DeFazio. Yes, thank you.
    Mr. Whiteside, I am particularly interested in your 
description of the length of time it took to get certified to 
monitor the platforms in the gulf. As you say here, well 
offshore, no population, no VFR, and obviously, you know, a 
critical mission, it saves a tremendous amount of money and it 
is also, you know, for public safety.
    So you are saying that there is still a question whether 
you can do this under part 107 or under the waiver authority 
with the 333? Why is there still a question?
    Mr. Whiteside. That is correct. The challenge that we face 
in a lot of these regulations is that there is no clear defined 
answer. When you talk to the FAA, you often get an 
interpretation of a rule and you don't get a hard set 
requirement or a defined answer.
    So with regards specifically to offshore, we are operating 
outside the ADIZ, which is the Air Defense Identification Zone. 
And there are some differences, depending upon who you speak 
with within the FAA, about who has the controlling authority in 
that airspace and whether or not the rule that you are 
operating under is the standard Federal rules or under the new 
exemption.
    And that is the problem that we face oftentimes within the 
space that we are operating. It is not that the people that we 
are dealing with within the FAA aren't knowledgeable or they 
are not caring. You know, they are pretty attentive when you 
ask a question. But much of what we do relies on 
interpretation. And that is where the delays often come in, in 
the rulemaking or in trying to get the approvals, is that you 
are dealing with a construct that happens oftentimes behind 
closed doors within the lawyers and the legal realms of the 
FAA, and there is not a defined process by which answers can be 
driven.
    Mr. DeFazio. OK. Then, Mr. Gibson, can you address, how can 
we make that process work better? I mean, it shouldn't take 
that long.
    Mr. Gibson. Yes, sir. We endeavor to improve on things. I 
think he touched on a key point here, and I am not familiar 
with the specifics of that case, but we are breaking new 
ground. I call this the most fundamental change in aviation in 
our lifetimes, and so many of these don't map directly to what 
preexisted with our traditional aviation.
    So some of them take quite a bit of thought to make sure, 
even though you are out over the ocean, of course, you have 
helo traffic out there, you have the safety of the platform 
itself. But I can take that for an additional question if need 
be, sir.
    Mr. DeFazio. It just seems to me that we ought to be able 
to categorically establish some of these things. Like, OK, if 
we have got certified one platform now, it should be a much 
more routine process in the future for either his company or 
another certified operator to do these sorts of things.
    I mean, we need to have some standardization here. I mean, 
I know it is an issue of first impression, but once you have 
dealt with it once, then it is no longer an issue of first 
impression, and we ought to be able to move more quickly. And 
if you need direction from Congress or you think you lack 
authority, then tell us, because we would like to fix that.
    Mr. Gibson. Yes, sir.
    Mr. DeFazio. I would like to go to Mr. Fayard, because, 
obviously, you are dealing with an issue that is becoming more 
and more critical to many communities. And I am curious about 
this 18 months to get one aircraft onto a certificate. Why 
would it take that long?
    Mr. Fayard. Well, that is more of a kind of what you have 
to plan for, if you will. And, you know, the certification 
process itself is relatively straightforwardly laid out, 
saying, these are the steps you need to do.
    The problem that we have, and it ties back into the access 
to capital and funds, is the uncertainty. There are gates to 
walk through, but that doesn't mean it is going to happen in 18 
months. And so when you go to an investor group and say, 
listen, we are starting this aviation business, we are going to 
get our own certification, you can't tell them reliably to say, 
well, it could be a year, it could be 2 years, it could be 3 
years, because there is no--even if we do all the correct 
things on our side, and I am not saying that is always the 
case, but if you go forth in that endeavor, there is no way to 
be able to tell or plan that you will be able to receive a 
certification to operate in a sum period of time. It is all 
best guess.
    And that is very difficult, obviously, on the financing 
side. That is very difficult on the operational side. It is 
very frustrating to our cities and partners, saying, well, we 
can get there when we can get there. It is very difficult to 
kind of forecast your business as well. So if you have an 
enterprising group that says, we are going to start another 
GLO, they could not reliably tell you--if they are, they are 
lying--that yes, we are going to have our own certification in 
18 months and we will be flying 18 months plus a day. It is not 
possible.
    Mr. DeFazio. But the steps in this case, you know, things 
weren't really defined that Mr. Whiteside is dealing with, but 
this is a routine process----
    Mr. Fayard. Yes, sir.
    Mr. DeFazio [continuing]. Obviously. So, I mean, you know 
what the steps are. They are defined, known. But why does it 
take that long? I mean, is it because they are not--I mean, 
they are sequential, but you have to finish one? I don't quite 
understand.
    Mr. Fayard. Well, I mean, without going too deep into it, 
you know, you submit your manuals, et cetera, to the FAA, and 
they have a review period where they go through them. So the 
steps themselves are relatively straightforward, you know, 1 to 
10 let's just call it. But you get into, you know, what they 
refer to as a lack of resources in certain FAA offices of which 
you have to deal with. And, again, they are being very helpful. 
I mean, we have a really good relationship with the FAA. We 
have had a really good relationship with the DOT. But they are, 
frankly, hamstrung with resources to get a warm body in there 
and to be able to review and do these things.
    And just one example, when we launched this business, we 
were slap in the middle of sequester. And whether that was used 
improperly by some of the agencies we had to deal with, 
everyone throws their hands up and says, we are under 
sequester, we don't have the money and the resources to--we 
will get to you when we can. And, you know, I have got a lot of 
respect for the other gentlemen and ladies at the table with 
this new frontier, no pun intended, with space and drones, et 
cetera. And you are right, that is an issue of first 
impression. But airline certification, whether it be part 135 
or part 121, is not, and it should be relatively--I don't want 
to see you go to the store and pull one off the shelf, but it 
should be a little more streamlined.
    Mr. DeFazio. All right. My time is expired. I am sorry the 
chairman left. But I would point out one of the deficiencies. 
You are talking again about certification, which we have heard 
from manufacturers, now we are hearing from you is one of the 
most critical things that needs, you know, streamlining, 
reform, and it also needs adequate personnel.
    And in the chairman's version of privatization of air 
traffic control, certification stays over there with the 
Government; the new corporation doesn't have that authority. 
And, of course, it is subject to sequestration. You could 
create a Government corporation where you wouldn't have that 
problem, cleaving the agency in half, but that is for another 
day.
    Thank you.
    Mr. LoBiondo. Mr. Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman.
    I want to explore a little bit about the drone technology. 
You know, we talk about beyond line of sight and line of sight. 
It seems to me agricultural applications, maybe real estate 
applications, checking utility lines, you know, if you get out 
of line of sight, your skills aren't in the parameters of their 
scope of where they are operating, say it is, you know, 100 
feet, 200 feet, wherever.
    Then I look at Amazon. Mr. Cassidy, it seems to me that for 
that to work right, you are going to have to--I don't know what 
the technology is. Let me back up for a second.
    I think I saw on ``60 Minutes'' a couple of months ago they 
dropped drones out of an airplane--it must be a DOD deal--
hundreds of them. And they could interact in milliseconds. They 
didn't collide. So that tells me the technology must be pretty 
sophisticated.
    So for like an Amazon, is it possible, is technology there 
where you could punch in my address and deliver that package 
that is coming to me today by drone and it would work like, you 
know, autonomously? Can you, you know, expound on what the 
technology is? Because it seems to me like there are two 
different things going on here. You got the technology where 
somebody is controlling it like, for example, one person used 
looking at the well site. OK. Obviously, that person is 
probably controlling that drone more manually. But is the 
technology there to where the drones can actually be what I 
would call smart drones?
    Mr. Cassidy. That is a great question. Thank you very much 
for that. So let me just start out by saying that it is 
Amazon's commitment that we are not going to launch Prime Air 
until we are absolutely convinced that we can do so safely.
    And the way that we do that is a couple ways. One is that 
we invest in technologies that we talked about before, such as 
sense and avoid, where you equip your machines with very smart 
kind of mechanisms that help establish the awareness of other 
vehicles, both unmanned and manned, within the airspace.
    And the other thing, in terms of technology, is we invest 
in this system of operations that we are calling the unmanned 
traffic management system. And so what we are moving towards 
is--and we talked about that a little bit in our opening 
comments--is that if we are allowed to understand what required 
levels of safety are with regard to performance standards and 
design standards, the technology can actually be fleeted up to 
meet those marks. And then we can take the next step and start 
demonstrating safe innovative operations that not only benefit 
Amazon but benefit everybody, because we all benefit from this 
technology.
    So, yes, I think that we can certainly get there, based 
upon some of the stuff that is already available right now, in 
terms of cellular and WiFi-enabled tools to establish the 
presence of each other, and also some of the other things that 
we are heavily investing in in terms of sense-and-avoid 
technologies.
    Mr. Gibbs. So the challenge for us policymakers is to try 
to keep up, which we never will, but that is the challenge, 
because I think the technology is coming.
    And so it is safe to say that there are really kind of two 
things happening here. You have got the drone technology for 
like farmers might use versus what you use for long distance 
for delivering packages. That is true to say that? It is really 
two things happening here in the drone technology?
    Mr. Cassidy. Yes, sir. I think there are different 
applications, but there are different applications sometimes of 
similar technologies. And so I think that--you know, my 
background is in manned aviation. I was an airline pilot for a 
number of years. And different planes and different pilots have 
access to different types of airspace and airports, depending 
on the level of equipage. And so I think that when you think 
about technology, it is not kind of an either/or situation. I 
think there could be derivatives of the technology that we are 
talking about and developing that can be applied in fairly 
modest cases very locally, but then can also be applied very 
safely and innovatively across, you know, longer distances, 
like beyond-line-of-sight delivery operations.
    Mr. Gibbs. Thank you.
    Mr. Moses, I am really intrigued at the discussion in your 
presentation on going up in outer space with returnable 
vehicles. Kind of like the space shuttle, I guess. I guess it 
is always good. If the private sector can do it, the public 
sector shouldn't be doing it. You got permits, but you haven't 
really started that, or what is the status of that?
    Mr. Moses. So we operate under a dual licensing technology. 
We were doing flights, because we are a hybrid system using an 
aircraft. If we don't intend to fire the rocket motor, we 
operate under part 91 experimental rules under the FAA. And so 
we are permitted to do those activities right now. Those tests 
are underway currently.
    This summer, we will start rocket-powered flights. And when 
we fire the rocket motor, we operate under part 400 of the 
commercial space flight rules. And those rules regulate us, and 
we do have that license awarded to us for test flights. The 
final step of that is basically to gather the data of how the 
systems perform for the people on board, provide that data back 
to the FAA, and then they will remove that last restriction on 
us, which opens us up for commercial.
    Mr. Gibbs. Just a quick followup. On the permits you got, 
were you satisfied in a timely fashion, or was there any, you 
know, frustration, or how did it go?
    Mr. Moses. No. I think, in general, they went fairly well. 
Obviously, a lot of things that can be improved. We were one of 
the first ones through to get a human-rated version of this 
license. I think we have found a few things that will help 
streamline it in the future. But in general, a pretty 
straightforward approach.
    Mr. Gibbs. Thank you, Chairman. Out of time.
    Mr. LoBiondo. Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Ms. Yak and Mr. Gibson, I represent New Jersey, portions of 
Essex, Hudson, and Union Counties, and these areas are part of 
some of the busiest airspace in the country. As the FAA created 
rules regarding drones, was your rulemaking one size fits all 
for the country or did you give consideration to unique 
airspaces surrounding major cities?
    Mr. Gibson. Thank you for the question, sir. The part 107 
rule was built really around class G airspace, which is 
uncontrolled, with the ability then, with exception, to 
authorize flight into controlled air as well.
    So in those dense airspaces, I assume most of the cases 
that you are referring to are class B or better as far as 
control and how the equipage is to enter there. But there are 
avenues, through approval with the FAA, for them to be able to 
operate.
    Mr. Payne. So there are different rules for the densely 
populated areas as opposed to rural?
    Mr. Gibson. Yes, sir.
    Mr. Payne. OK. Thank you. And, you know, I understand a big 
concern of citizens and regulators at the FAA is the use of 
drones by bad actors invading the privacy of others. However, 
what consideration has the FAA given to drones used by 
terrorists? Should Congress and the American people be 
concerned about this other type of bad actor as well?
    Mr. Gibson. Again, thanks for the question. Clearly, we are 
concerned and we are involved with our Federal partners. I 
think if one thinks of a continuum from one end, which is 
aviation safety, which is what we deal with routinely within 
the FAA, though; but as we cross that continuum, we begin to 
drift into security concerns, specifically counterterrorism. 
And so our other Federal partners--DHS, FBI, DOD--we are 
heavily involved with them in regards to those concerns.
    Mr. Payne. OK. Homeland, I would assume as well.
    Mr. Gibson. Indeed.
    Mr. Payne. OK. And the FAA's regulations have set 
limitations on the age of drone operators, the size of drones, 
and how far an operator of a drone--how far an operator of a 
drone may be operated. However, the FAA permits waivers of 
these requirements. Can you describe the considerations that go 
into granting or denying of waivers?
    Mr. Gibson. Sir, as you mentioned, the part 107 rule, when 
it was established, had some particular areas that were 
waiverable. And when we go to the waiverable process, it is 
looked at by our flight standards folks and mitigations that 
the operator proposes that they would take to achieve an 
equivalent level of safety in operations in a different 
environment.
    So it is usually relatively straightforward. I think 
already we have issued over 700 waivers for nighttime and a 
couple for beyond visual line of sight. We have also considered 
a lot of airspace authorizations, your earlier subject as well. 
But each one right now gets an individual look.
    Mr. Payne. OK.
    Mr. Chairman, I yield back.
    Mr. LoBiondo. Thank you, Mr. Payne.
    Mr. Webster.
    Mr. Webster. Thank you, Mr. Chair, for holding this 
committee meeting. I think it is a very important one.
    What a mass of information we are getting on all kinds of 
areas. It is hard to put a lasso around it. I would like to 
focus in, though, Ms. Shelley, on the cybersecurity issue. I 
heard in another committee that even Barbie dolls have IP 
addresses. I just think it is like this flood, not just for 
certain, as I say, military operations or business operations 
or whatever. It is just it is so big and it is flying at us.
    Is there anything that you are doing through your technical 
operations to monitor that or keep up with that, or is there 
anything that there needs to be done legislatively to help you 
do that?
    Ms. Yak. Thank you for the question. There are a number of 
things that we are doing. From the agency's perspective, we do 
have a committee, a cybersecurity committee in place, and they 
set policy and standards for all our systems and domain areas.
    Our domain areas are the National Airspace Systems or the 
air traffic management systems, our mission support systems, 
which are our IT systems, and our R&D domain area, which is 
where we do our test and evaluation of research.
    We have the cybersecurity test facility at the Technical 
Center, and this is where we start looking for the tools to 
help us monitor the health and security of these systems. So we 
will look at tools, procedures, policies. We will assess for 
vulnerabilities. We will validate what risks are out there. And 
then we will look for mitigation solutions using this 
laboratory.
    We also have continuous monitoring capabilities in place 
for these domain areas. And another portion of what we use the 
cyber test facility for is to conduct simulations or what I 
would call, you know, evaluations of our procedures. And what 
we do is we set up an environment that uses the exact tools 
that our incident responders are using. And we will start then 
pretty much attacking the system in a very safe way, so that 
they can use their procedures, see how the tools work, make 
decisions in realtime. So it is a very good exercise for trying 
out our security posture.
    Mr. Webster. So I could see how a drone could be used for 
some sort of mischief in all kinds of ways. But is there also 
the possibility of drone hijacking, where you use someone 
else's drone to do injury, harm, or create some sort of chaos 
in our country?
    Ms. Yak. So from a research perspective, we are looking at 
the command and control link for drones as well as our detect 
and avoid. So we are doing the research on the technology.
    And, Mr. Gibson, do you want to talk a little bit about how 
we are applying that?
    Mr. Gibson. Well, sir, I think you are limited by your 
creativity on some of the scenarios that you can walk through 
on this. Clearly, the bigger vehicles, all UAS are controlled 
via link, which is vulnerable, could be vulnerable. As we get 
into the smaller aircraft, I am not sure that cyber would be 
the first choice, because they are relatively inexpensive and 
currently can mask some of the capabilities or the 
identification.
    So we are all very concerned about that. There are a number 
of measures. I would offer that the Remote ID Aviation 
Rulemaking Committee that we are standing up very soon with 
industry and our stakeholders is going to go a long way towards 
clearing up some of the anonymity that is involved in the 
smalls.
    Mr. Webster. I only ask you, because of traceability of 
some sort, that it is a different owner, it wasn't the person 
that actually did the damage. Yeah.
    Mr. McNeal. Congressman, just piggyback on the point that 
General Gibson made. In Appendix H of my testimony, I provide a 
little bit of information about remote identification and 
security measures for securing this uplink. And I believe 
committee staff has a lengthier paper from us on this.
    One simple already deployed technology mechanism that could 
be used are SSL/TLS certificates, which are used to secure 
Internet of Things devices as well as securing the web pages 
that we visit on the internet, and that is one way of ensuring 
that the communication is encrypted, because if a person were 
to hijack a drone, we might face a circumstance where some day 
a CNN drone is flying over a crowd and a person takes control 
of that and brings it down into the crowd, and the first blame 
becomes blame of CNN instead of actually that malicious actor. 
So securing that uplink I think is a really important 
initiative that we need to focus on and one that I believe we 
plan to talk about on the remote iDR.
    Mr. Webster. Thank you very much.
    Thank you, Mr. Chair.
    Mr. LoBiondo. Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Chairman 
LoBiondo and Ranking Member Larsen, for having this fourth 
hearing in a series of meetings to discuss the state of 
transportation in America.
    As ranking member of the Science, Space, and Technology 
Committee, I really understand the importance of innovative 
approaches to problems. As with any innovative approach, 
however, new challenges and obstacles await. As Congress 
considers making sweeping reforms to air transportation and 
upcoming FAA reorganization, safety, of course, must remain a 
major consideration. Our panel is dominated this morning by 
individuals from the unmanned aerial vehicle industry, and 
there is no doubt that drones are already integrating into our 
airspace at a rapid pace.
    So, Mr. McNeal, in your testimony, you spoke of some of the 
institutional challenges in Government the aviation industry is 
facing when it comes to safe implementation of innovative 
technologies such as drones. Can you elaborate on the 
structural, financial, and regulatory and any other obstacles 
that are preventing agencies such as FAA from rapidly adopting 
new rules that are conducive to this innovative approach with 
this technology?
    Mr. McNeal. Yes, Congresswoman, thank you for the question. 
I think the structural challenges--and General Gibson alluded 
to this--are that we have witnessed a rapid change in aviation. 
It is an entirely new type of industry than previously existed. 
And so we have an agency filled with tens of thousands of 
hardworking people who are accustomed to working in a certain 
way, and now we are asking them to do things in a different way 
at a much more rapid pace.
    And so I think there are a few ways to empower those 
individuals. And so what we find are some of the folks that I 
mentioned in my testimony are agents of change within the 
agency. But they run up on some of the things that Mr. 
Whiteside and others spoke about, which are existing old forms 
of regulation and rules that now have to be interpreted for new 
circumstances.
    So I think one key thing that Congress can do to help 
ameliorate this structural challenge is to set dates certain by 
which certain outcomes have to occur. The best example of this 
most recently was the date certain that was set in the 
extension last year, both for implementing a NASA UTM program 
as well as the remote identification process. Clear direction 
from Congress, this is a priority to work on, and it must be 
delivered by a certain date. And that allows those change 
agents within the agency to say, listen, there is no 
negotiating on timelines here. We must implement this in a 
given period of time because Congress has told us we must do 
that.
    And oftentimes then, if Congress follows on on the approps 
side with the resources to make it happen, it really helps 
those change agents be able to act and understand what the 
priorities are. Otherwise, what we have are, you know, the 
entire forest is on fire and the question is, which bush do we 
put out first or which tree do we put out first? This 
prioritization from this body, I think, is extremely helpful to 
the agency in knowing what the direction is and what the 
expectations of this committee are.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Moses, the idea of commercial space flight also has a 
really kind of exciting and thrilling type of spirit toward it. 
Can you speak more to the balance that FAA's Office of 
Commercial Space Transportation has achieved when regulating 
your industry for ensuring safety while also allowing room for 
innovation?
    Mr. Moses. Yeah, that is a fantastic question. And I think, 
you know, I would wholeheartedly agree the innovation of space 
and the dream of it is the reason why we are doing this, right, 
is to allow that opportunity to others to experience that.
    In terms of how the AST office has worked through licensing 
technology--or licensing process, sorry, you know, it is like 
my colleagues here at the table, right, it comes down to a 
matter of interpretation. And the rules are written, at least 
part 400 is fairly new, so it is written for this industry, but 
it was very much written for an expendable launch vehicle type 
rocket stacked on a pad, launching from the coast, flying out 
over the ocean. And so an approach like ours where we are 
launching rockets from an airplane or companies that are 
launching rockets from balloons or using just balloons 
themselves, those rules don't directly apply.
    So I think the language in the AST's mandate to help the 
industry allow them to kind of look for those solutions that 
allow you to kind of right-size an equivalent level of safety. 
An example for us might be in smoke detection systems, right. A 
rule that is written for a system that has a manned vehicle 
mated to the space station for months at a time needs an 
automated system. We are in space for 10 minutes, and an 
automated system is probably not applicable. So having that 
flexibility in the regulations is extremely helpful to innovate 
our approach.
    Ms. Johnson of Texas. Thank you very much.
    My time has expired.
    Mr. LoBiondo. Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Ms. Yak or Mr. Gibson, the short-term extension directed 
the FAA to establish a pilot program for the UTM. And I am just 
wondering, I think it is supposed to begin this month. Is it on 
schedule to begin this month?
    Ms. Yak. There has been quite a bit of work on this program 
and we do have a plan in place.
    And, Mr. Gibson.
    Mr. Gibson. Yes, sir. We work closely with NASA and have 
for a number of years now. They just recently completed phase 2 
of a 4-phase effort, but also, about I guess almost 6 months 
ago, got together with our NextGen organization and established 
a research transfer team, a process that has enabled a lot of 
the NextGen technology to come forward over tests. So yes, it 
is on track. And----
    Mr. Perry. So it will start this month, right?
    Ms. Yak. So in April, what is due--and I didn't want to 
steal Mr. Gibson's thunder here, but what is due is the plan 
for the pilot. And yes, we are.
    Mr. Perry. The plan. The plan is due in April.
    Ms. Yak. Yes.
    Mr. Perry. OK. So when----
    Ms. Yak. The program will be defined this month, yes.
    Mr. Perry. OK. So when will actual testing, so to speak, 
where you are actually flying vehicles, based on the technology 
that you are considering and--you know, when will a pilot where 
most people would view--pardon the pun because of the subject--
when will that be happening? When can we expect to see 
something?
    Mr. Gibson. Sir, we have already done two of those major 
tests with NASA. The first one was out in California, and most 
recently, a few months ago at Reno. And it both includes live 
flying, virtual flying, and constructive flying, via a 
simulation. So they are continuing to load up the system.
    Mr. Perry. OK. So just to inform me, because I don't know, 
is this based on GPS technology, or what is the basis of the 
technology that they are using for the UTM? Do you know?
    Mr. Gibson. Yes. For the location; but in many ways, it is 
IT-based, as far as the vehicles, being able to track where 
they are at and predict their locations.
    Mr. Perry. And the reason I am asking some of the questions 
is, is that people, because they know I am on the committee, 
they come into the office and they have a lot of ideas, right? 
And I see some of these things. And they blow your head apart, 
right? But, you know, I don't know the technical specifics of 
it. Those are the people that come in that they do.
    But I am wondering, how are those things integrated? How 
are they considered in any pilot? How do those people get their 
ideas vetted? How are they considered? Are they ever 
incorporated or is this--you know, per my notes, it was in 
conjunction with industry. So how does industry, including a 
guy that is really smart who has got an idea that came up with 
it out in his garage, how does he get involved? Is he involved?
    Mr. Gibson. Sir, we have kind of an open door policy on the 
technology for folks. I have companies coming to me constantly. 
Our integration office I know entertains things. I am sure the 
Tech Center does as well. So there are a number of avenues open 
to those folks.
    Mr. Perry. Are you the name--who is the name at the Tech 
Center where people--because they ask me, like how do we--how 
do we get into this field? Like, how are our ideas vetted? Who 
is the person? Is there a name associated with this?
    Ms. Yak. So to answer first, I am the person to contact, or 
any of my staff.
    Mr. Perry. OK. Great.
    Ms. Yak. And Mr. Gibson is correct. We have the Drone 
Advisory Committee that can be used as a point of entry. We 
have a grants program for research. We have CRADAs, Cooperative 
Research and Development Agreements, that we can partner with 
industry and overlapping----
    Mr. Perry. I just want to make sure that the FAA is 
considering all the ideas, because technology is changing very 
quickly. And some of the things I see--and I lived in a GPS-
based world or less, you know, a map and a finger-based world. 
And I just hate to see us hamstring ourselves. I am concerned 
that the Government is standing in the way in many respects of 
this industry and that overseas operations and competitors are 
ahead of us because of our regulatory environment.
    Let me ask Mr. Whiteside, because you haven't been involved 
in the conversation a whole lot, what is the number one thing 
Congress can do, in your opinion, to enable innovation in this 
industry that you are involved in? What is the number one thing 
we can do? Or in helping the FAA or directing the FAA?
    Mr. Whiteside. Direct the FAA to understand not only the 
safety case but the business case behind the rules that they 
are making. And I say that because when rules are enacted or 
when you submit for a waiver request, there is only the safety 
case considered as to whether or not that should be approved.
    And like you just mentioned, with the loss of jobs in 
America going overseas, there is no consideration of the impact 
of those rules and how that is going to impact the applicant or 
the business that is trying to get that waiver. And the end 
result is small businesses often can't survive that timeline, 
and then the larger companies with the resources and the 
capital can make that happen.
    So there is a real disconnect between implementation or 
requests for an approval and the business who is submitting it 
and what the implications are to that business. And if that 
could be connected somehow, that would be pretty valuable.
    Mr. Perry. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. Fascinating hearing.
    Ms. Yak, I was interested in--actually, I have two 
questions which come from your written testimony. One had to do 
with a pilot project involving what you call critical 
infrastructure. Because I represent the District of Columbia, 
where you can't fly these drones yet, not only here but parts 
of Maryland and Virginia, which are part of the National 
Capital region, as far as I know, and because a drone a couple 
years ago flew into the White House grounds, I am interested in 
hearing more about your pilot project on critical 
infrastructure and what it means, whether or not the Nation's 
Capital would be like every other place when it came to--when 
it came to flying drones.
    Ms. Yak. Thank you very much for the question. We are doing 
a lot of research in that area, but Mr. Gibson keeps poking me, 
saying, I want to take this one. So I am going to turn it over 
to Mr. Gibson and then I will follow up.
    Mr. Gibson. Thank you for the question, Congresswoman. We 
do have that section of language and we have begun, actually, a 
good bit of that research.
    Specifically, the first part, we were able to use existing 
regulation, I think as a fallout of 9/11, to aid our Federal 
partners. We are currently standing up airspace protection 
measures for over 130 sites with DOD. We have another 10 coming 
in from the Department of the Interior and we have 8 with the 
Department of Energy. So we continue to work very closely with 
the partners.
    The other part that you are probably also alluding to then, 
especially with the nature of this aircraft now, that we have 
to consider a lot of private sites, private utilities, 
refineries, ballparks.
    Ms. Norton. Airports, yes.
    Mr. Gibson. Yes, ma'am. 2206 is focused on the airports, 
and we have a whole separate effort ongoing there. But 
currently, the 2209 really gets down to the airspace. Of 
course, the vehicles can penetrate that airspace if they so 
choose, but we will have the word out that will enable those 
trying to protect it.
    It is not just active measures, though. Manufacturing has 
worked very closely with us. They put in geofencing and things 
of that nature. So, to your point, unless somebody really works 
hard flying in and around the Capitol or the White House, the 
vehicle won't even start now with geofencing.
    Ms. Norton. Yeah. It is going to be difficult, but I am 
sure you can do it.
    Mr. Gibson. Yes, ma'am.
    Ms. Norton. Ms. Yak, here's one for you. On page 7 of your 
testimony, you talk about aviation gas, and you are very candid 
about it. You say it is the only remaining lead-containing 
transportation fuel. Very controversial. You speak about in 
your testimony how toxic it is when it is inhaled. But what 
gave me some optimism is that you go on to describe some 
progress with the research and even with flight test 
activities, even saying the year 2018.
    I guess my question is, when will nonlead aviation gas be 
ready for wide use in commercial aviation?
    Ms. Yak. Thank you for the question. And that was a great 
summary. We have been working very closely with aircraft and 
engine manufacturers, as well as fuel producers, so that we can 
do this evaluation. And just as you summarized, we just 
finished phase 1 in March of last year, 2016, where we now have 
two sample fuels that we are testing. And we will be testing 
them in 19 different engine setups and performing at least 10 
tests with aircraft.
    The results of our research will be done in the 2018 
timeframe. That is when the assessment of the research results 
will begin. And then we will start the process for 
certification and validating of the use of fuels and the output 
there. So it will be in the 2018 timeframe.
    Ms. Norton. But will it be required?
    Ms. Yak. Will it be required?
    Ms. Norton. To use nonlead--I mean, we got lead out of 
everything else, paints and----
    Ms. Yak. It is definitely desired, but we have to find out 
what the research says and where we can go from there.
    Ms. Norton. Is it going to be more expensive, do you 
believe?
    Ms. Yak. It is way too soon to know any of that 
information. Sorry.
    Ms. Norton. I hope you are evaluating that so there is no 
excuse once we have it. It looks like the science is almost 
there. The question is, given the toxic nature of aviation gas, 
which surrounds us--I can't imagine what harm it is doing--we 
need to understand when it is going to be ready and whether it 
will be required or whether it will be one of those innovations 
that we are very pleased to see. But then the excuse--and not 
always invalid--is that it costs too much and the public will 
have to pay too much. So I hope that we are working on both 
those measures at the same time.
    Ms. Yak. Thank you for your input.
    Mr. LoBiondo. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Although I don't have a question for Mr. Cassidy, thank 
you, Amazon, for investing in Edwardsville, Illinois, in my 
district. We would love to see you grow even more, so please 
think about that, especially since I didn't ask you a tough 
question today. So remember that next time you are thinking 
about expansions.
    Ms. Yak and Mr. Gibson, I have got three questions. The 
first two, please answer quickly or I will have to cut you off, 
because the third one I got to get to. First off, I want to ask 
you about the implementation of the part 107 final rule, and 
specifically about the implementation process to request 
waivers for operations under that rule. As of yesterday, April 
3, the last issuance of a waiver was on January 23, 2017. Is 
there a reason we haven't had a waiver in nearly 2 months?
    Mr. Gibson. Sir, I haven't heard that number. Every time I 
check with them, it is increasing constantly, but I will have 
to take that one for the record.
    Mr. Davis. Please get back to my office on that.
    Mr. Gibson. Yes, sir.
    Mr. Davis. Thank you.
    It seems to me the vast majority of waivers issued by the 
FAA have been to allow nighttime operation, which leads me to 
believe that the FAA has a relatively streamlined process 
considering waiver requests of that nature.
    Are you guys at the FAA working to develop a streamlined 
litmus test to consider greater numbers of waivers for other 
operational restrictions under part 107, such as the 
operational line of sight?
    Mr. Gibson. Sir, not to simplify the problem, but I think 
the large number of waivers at night was most enabling and we 
probably got the most requests in that area. Beyond visual line 
of sight is much more complex. It is open for waiver and we 
have done a few. But the mitigations are significant. Where 
they are going to operate and those kind of things are 
considered each time.
    Where we can, we pass those lessons learned back to the 
community. In other words, these are the ones that were 
approved. Here are the things we look at. We are trying to 
continue to inform as we work through the process.
    Mr. Davis. Great, great. I mean, keep in mind, as we look 
at technology and we look at disaster relief, obviously, these 
are things that need to be taken into consideration on that 
rule.
    One concern raised to me by a constituent actually relates 
to the operation of UAS in controlled airspace. Under part 107, 
that permission was to come from the air traffic control tower. 
According from the rule summary, as published in the Federal 
Register on June 28 of 2016, in considering whether to grant 
permission to a small UAS to fly in controlled airspace, ATC 
will consider the specific nature of the small UAS operation 
and the risk the operation poses to other air traffic in that 
controlled airspace. ATC facilities have the authority to 
approve or deny aircraft operations, based on traffic density, 
controller workload, communications issues, or any other type 
of operation that would potentially impact the safe and 
expeditious flow of air traffic.
    However, on October 23 of this past year, a new FAA order, 
JO 7200.23, was issued, instructing local ATC personnel how to 
handle UAS calls to their facilities, including both hobbyists 
and commercial operators. And what this states is, in the event 
a part 107 operator contacts an ATC facility directly for 
authorization, the facility must not issue authorization. The 
facility must direct the operator to the FAA UAS website, 
faa.gov/uas.
    Now, Ms. Yak and Mr. Gibson, this order seems to contradict 
what the initial intent under part 107 was, as it relates to 
requests for operators of UAS to operate in controlled 
airspace, and has discouraged many operators. Can you explain 
why this step was taken and why the FAA doesn't believe local 
personnel are prepared to make this determination on a case-by-
case basis when it was clearly our intent to do that?
    Mr. Gibson. Sir, I probably should be more informed on that 
wording, but I have not heard it before this, so I have to take 
that one for the record as well.
    I will comment that we are in the process of gridding out 
all the airspace around our airports, working with Mr. McNeal 
here and his peers to automate many, if not all, of those 
approvals over time. We hope to have an initial capability by 
the end of the year.
    So the operator comes up and uses an app, basically, that 
is near realtime, and can then text the local authority and get 
approval within seconds, hopefully.
    Mr. Davis. And I appreciate your comments, Mr. Gibson, but 
you can understand our frustrations as policymakers. When we 
have an intent to allow for operators, especially in rural 
areas--I represent many regional airports. And there is usually 
a pretty easy way to contact the ATC tower. And why can't, on a 
case-by-case basis, these things be offered as approved?
    I mean, people are trying to do the right thing to 
implement this technology, be it a hobbyist or be it for 
commercial reasons. And at some point, we got to get Government 
off their backs, and this rule specifically seems to be 
contradicting what we needed. So, please, I do want a specific 
answer as to why this has happened and why this rule is 
contradictory and what the FAA is going to do to fix it. So I 
appreciate your time.
    Thank you, everybody, for being here.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. LoBiondo. Excuse me, Mrs. Napolitano.
    Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chairman.
    Mr. Whiteside, can you tell the subcommittee how drones are 
producing jobs around the country? I had someone at a forum 
tell me that a growing industry is going to be drone operators. 
I don't know if that is a reality or not. How do you see the 
unmanned aircraft sector expanding in the future, and what kind 
of jobs should we expect from it?
    Mr. Whiteside. Sure. Thank you for the question. I think 
the official forecast is 1.3 million new operators by 2020. And 
if you look at what is happening now, I think we are well on 
the way to that sort of a forecast.
    The drone of the future or the operator of the future is 
probably not going to be a specialty service company like VDOS. 
It is probably going to become more of a routine tool that the 
operators are going to use. So the insurance adjuster of today 
is going to go to his site with a ladder and a drone, and the 
first thing he will do is fly the roof when he is doing a roof 
inspection to look to see if he needs to get on the ladder to 
get on the roof. Roofing contractors will do inspections. We 
know that farming and agriculture will expand the use of 
technology.
    So right now, we are at the beginning stages of this, and 
the specialization is really important, but as the technology 
improves, as it becomes more reliable, as the legal issues 
become solved, we will see the expansion quite rapidly into 
more and more routine daily operations with less and less 
specialization.
    Mrs. Lawrence. That is interesting. Mr. Whiteside, in your 
written testimony, you mentioned your company's work in 
Australia. And you note that Australia has permitted drone 
operations beyond the operator's visual line of sight for a few 
years now. How would you compare the regulatory framework in 
the United States with that of Australia?
    Mr. Whiteside. Australia is a great example of how 
certification compliance can work. The industry is several 
years ahead of the U.S. in terms of how the technology is being 
used and what the laws allow. There is a pretty straightforward 
certification process that somebody has to go through to become 
licensed, and that goes all the way through to beyond-line-of-
sight operations.
    We are stuck right now in the U.S. with a lot of 
interpretation of the rules, whereas in Australia we have got 
the benefit of actually having a path to get certified. And if 
that key or that element were to be enacted here, that would 
dramatically change this industry and how the technology is 
going to be used.
    Mrs. Lawrence. Ms. Yak, can you comment on that too?
    Ms. Yak. The FAA is looking at everything that is involved 
with integrating drones safely into our airspace and working 
hard with the rulings that we have just put out that Mr. Gibson 
has talked about and working with industry to develop the 
concept and the operations for integrating it. So it is ongoing 
work, and it is through our partners that are at this table 
that we are actually going to be successful. So we appreciate 
that.
    Mrs. Lawrence. Any other comments from the panel?
    Mr. Gibson. Ma'am, I would just recommend that we remind 
folks that our airspace challenge is the most dense, most 
complex in the world. We already fly some beyond visual line of 
sight. Alaska, with science and research up there, is beyond, 
BNSF Rail. We are doing it where we can and we continue to grow 
that. And, as we mentioned, the Drone Advisory Committee, we 
are working with industry. And our stakeholders Task Group 2 
under the DAC and the subcommittee are working specifically on 
access to airspace, which are the things you just spoke about.
    Mrs. Lawrence. I want to say that young people, when I meet 
with them, drones are probably the most exciting thing to them. 
And it is in that meeting with young people, like they see 
being a drone operator as a cool job to have. I want to say 
that we, as we move this industry forward or as the industry 
moves us forward, having a committed set of rules and 
regulations is extremely important.
    And my last question is, we talked about drones as it 
relates to travel into the galaxies. I don't understand how a 
drone is related to us getting to the moon. So can someone 
drill down on that for me? Mr. Moses?
    Mr. Moses. Yes, sure. So it is an interesting question, 
right. So, effectively, if you look at the unmanned, you know, 
uncrewed space program, the robotic probes, those are 
effectively drone technologies, right. It is a remote probe 
operated from----
    Mrs. Lawrence. So we are using it now.
    Mr. Moses. Yeah. And then as you go further and further 
away, that link signal becomes longer and longer. To the moon, 
it is about a minute delay. To Mars, it would be a 6- to 10-
minute delay. And so you need an autonomous system at that 
point as well so that it operates by itself. So it is a natural 
progression.
    Mrs. Lawrence. OK. You are the exciting group before us. 
Thank you so much for being here.
    Mr. LoBiondo. Thank you.
    Before we turn to Mr. LaMalfa, Mr. Fayard, before I forget, 
if you ever think of moving into the Northeast, Atlantic City 
is a great market for you.
    Mr. Fayard. We will get right on it, absolutely. Yes, sir.
    Mr. LoBiondo. We would be just right for you.
    Mrs. Lawrence. I just want to say Detroit, we know how to 
build things.
    Mr. Fayard. I like Detroit as well.
    Mr. LoBiondo. Mr. LaMalfa.
    Mr. LaMalfa. Northern California has lots of nice open 
space too, since we are doing that.
    Thank you, panelists, for being here today.
    Thank you, Mr. Chairman.
    I will just get right to it on this for Director Yak and 
Mr. Gibson as well. My question is on the advisory committees 
on the drone situation, and maybe this was touched on in a 
different way. But the advisory committees, by and large, my 
understanding, are made up more of manufacturers of drones and 
have not as much representation by end users, maybe. You know, 
my primary focus in our area is resources with agriculture, 
timber, things of that nature. So drone technology is a very 
burgeoning, you know, great new tool that will be available for 
us.
    And so for those that would be on those advisory 
committees, is there really any cross-representation of end 
users or buyers of this technology, of this equipment here? 
Because, again, it can be very, very useful in agriculture, in 
forestry, in whatever, you know, utilities, where they fly the 
power lines near my home all the time with big helicopters and 
such. So what was the makeup or what is the intention of the 
makeup of those advisory committees to have a broad input on 
that?
    Mr. Gibson. Sir, thank you for the question. When we began 
putting the DAC together, I think there were over 400 
applicants all at the C suite level, very strong in the 
industry, but also in many cases outside, as you alluded to. 
End users communities. Mayor Lee from San Francisco sits on the 
committee. We tried to balance academia and the various aspects 
of UAS all the way down to the communities that might be 
affected.
    Mr. LaMalfa. Not much farming in San Francisco.
    Mr. Gibson. Pardon?
    Mr. LaMalfa. Not much farming in San Francisco.
    Mr. Gibson. Oh, yes, sir. To your point, PrecisionHawk I 
know is involved in that industry heavily. There will be a--I 
will get you the specifics of the current DAC. And then we have 
membership below that, at the subcommittee and all the way down 
to the working groups. And we will address the agriculture and 
forestry concerns. I know I just met with another company that 
has begun work in the forestry industry. So we do stay open to 
that, but I will get you the specifics.
    Mr. LaMalfa. I appreciate that. But there really is no 
requirement or direct intent to have those representatives 
directly on those advisory committees then. Is that pretty fair 
then?
    Mr. Gibson. Sir, we tried to balance as best we could. It 
wasn't that we omitted anybody. We just did the best with what 
we had at the time.
    Mr. LaMalfa. Well, talk a little more about the balance. 
What are--you know, how many are on--how many members on that 
and what have you been looking for so far to provide this 
balance?
    Mr. Gibson. Well, again, sir, you know, I probably can 
provide the answer better in detail, but there are 
manufacturers, there are operators, there are communities, 
there is academia. And we took 400 down to about 35 
representatives on the DAC itself. The subcommittee is much 
larger and probably balanced maybe a little bit differently, 
but we opened it up. Essentially, there are over 70 members of 
the subcommittee that do a lot of the work. And then there are 
now three task groups organized: Rules and responsibilities, 
access to airspace, and the last one is funding.
    Mr. LaMalfa. OK. Well, I understand how if subcommittees or 
committees get too large, it is hard to have a lot of input 
here. But I look forward to that information from you on that, 
on the criteria for the makeup as well as the makeup of the 
committees and subcommittees.
    One more question too. We would want to see the 
possibility, what would it take for beyond-line-of-sight 
applications? Again, where we are talking about in these very 
rural areas with agriculture and timber, especially timber 
management. So you are talking mountainous areas here, and we 
have other issues going on with being able to have them fire 
safe, where we need to do cleanup work around utility lines, 
have the, you know, buffer zone between trees and other 
foliage. So that would be a very important and very usable 
technology for maintaining those transmission lines, as well as 
other agriculture, ranching, remote areas.
    So what do you see on being able to improve that situation, 
not have it just be visual line of sight in operating the drone 
equipment?
    Mr. Gibson. Yes, sir. Well, we are continuing to lean 
forward in that area. I know, as I mentioned, I won't advertise 
a company name necessarily, but they are with a number of the 
forestry companies now and are out there for blight inspection 
initially and then application of herbicides, insecticides. So 
there are companies that are beginning to penetrate that 
market, if you will, with us, and I am sure we will see more in 
the future.
    Mr. LaMalfa. I mean regulatorily, though, there are 
restrictions on things being more than line of sight.
    And I need to go here, Mr. Chairman.
    But if you could get--do you have like just 5 seconds on 
that? Because line of sight is a restriction.
    Mr. Gibson. Yes, sir. Certainly, rural is less risk for 
considerations, but any time it leaves your line of sight, you 
need to have other mitigation factors, like we said, sense and 
avoid and those kind of things. It gets a little bit more 
complex.
    Mr. LaMalfa. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Just following up on that point. We hear a lot about the 
need to do regulation for flying beyond line of sight too. I 
hear it from the power company wanting to look at power lines, 
for delivery, for firefighting. So I would encourage you to 
keep us posted and let us know how we can move forward more 
expeditiously with that as well.
    I would like to ask Ms. Yak and Mr. Gibson too some more 
about the test sites. We fought very hard for Nevada to be one 
of the test sites, and I know a lot of the work there with NASA 
is going on. But what I am curious to know is how much you are 
using data that is gathered by what is happening at the test 
site to inform the regulatory or decisionmaking process at the 
Federal level. Are we really taking advantage of that data that 
is being generated or is it just going on a shelf somewhere?
    Ms. Yak. Thank you for that question.
    At the Technical Center we manage the agreements with the 
test sites, and there are a number of things that we have in 
place.
    For instance, on a quarterly basis and annually, they 
provide us the research, the research results that they have 
accomplished in that quarter and for the year. Twice a year we 
also have technical interchange meetings where they come and 
present what they have done.
    We too are using the test sites for a lot of our work, such 
as the UAS detection at airports work, and what the test sites 
are doing are collecting the flight data information as well as 
the research data and providing that information to the 
Technical Center. We pull it together. Like, for instance, 
there have been 8,000 flights since we started collecting that 
data, which was in 2015.
    So the areas of research have been from noise to detect-
and-avoid and quite a few critical infrastructure inspections, 
we talked about that. What we are doing with the research 
results is that we are pulling them together and making them 
available, particularly for the other test sites to be able to 
use it as a point of reference as they start doing their 
research.
    Ms. Titus. Mr. Gibson.
    Mr. Gibson. I concur with what Shelley stated. We continue, 
I think, to firm up our work with the test sites. And as she 
mentioned, I know in the counter-UAS piece that I have been 
working on, they have done all the support for that.
    Ms. Titus. Great. So I am glad to hear that.
    My other question that would just go to the panel generally 
is that the current administration seems to have the position 
that regulation is hurting innovation. They have this new 
policy that sounds like a happy hour special in my district of 
Las Vegas, two for one, you know, for every one new one, you 
have got to get rid of two of the old ones.
    So I am wondering if that is really a good policy when it 
comes to the kind of things that you all are working on as we 
try to move this industry forward. It is an arbitrary rule. 
Does that really make any sense? Can anybody comment on that?
    Mr. Cassidy. Ma'am, that is a very good question. And I 
think that is when we look at what the net result of these 
regulations and for beyond visual line of sight that we were 
just talking about and other things, it is safe integration. 
And so I am not really so much focused on two in, one out or 
anything else. I am more focused on what are smart and sound 
enabling regulations that can be implemented right now and how 
do we get there.
    And I think that the way we do is what we were talking 
about before, is let's take the things that are most pressing 
immediate needs, such as dealing with the safety and security 
issues, beyond line of sight--I am sorry, drone identification 
and tracking--and let's kind of solve for that, and that will 
take care of us unlocking the next regulation, which is 
overflight over people. And then once we get that done, then we 
can start moving a little bit forward on future regulations.
    So I don't really see this as kind of an arithmetic formula 
as much as us staying kind of tight and connected and focusing 
on the most effective near-term enabling regulations.
    Ms. Titus. Anybody else want to comment?
    OK. Well, that is so much for the two for one then. Let's 
see if we can do it in a more rational way.
    Thank you very much. I yield back.
    Mr. LoBiondo. Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    And thank you for the panel today, for the interesting 
information that you have shared.
    I probably have a little different view of unmanned 
aircraft systems. I see them more as a delivery mechanism for 
remote sensing equipment. I come from an engineering and 
forestry background, and I have seen the evolution of remote 
sensing over time. I saw us going from having to have field 
crews on the ground to do topographic surveys to being able to 
do flyovers with airplanes and take aerial surveys to do 
topographic mapping. I have seen us use satellite imagery to 
pick up on information in forestry stands. And really, as the 
remote sensing has improved, UAS has become a vehicle to 
deliver that remote sensing technology.
    And I also understand there are other commercial uses for 
it, like with Amazon with deliveries. But still remote sensing 
plays a critical role in that because you have got to determine 
the geolocation of the vehicle and also you have got to avoid 
things as you are flying to deliver packages.
    So in rural areas and in parts of industry there is just a 
huge upper limit of where these things can be used. But, Mr. 
Cassidy, in your testimony, you mentioned the need for Federal 
and State and local governments to work together and ensuring 
that UAS are not overregulated to create a patchwork. Can you 
explain how that would be detrimental to your business and also 
to some of these other businesses that are located in more 
rural areas?
    Mr. Cassidy. Certainly. And thank you for that question.
    I think it really just comes down to one word, and that is 
uniformity. And if we were to have to conduct operations, 
whether block by block, neighborhood by neighborhood, the 
access rules changed, you can imagine how complicated that 
would be.
    And so that is why, as part of the statement, we basically 
pointed towards the FAA and said the FAA manages the airspace 
and operations and aircraft in a very uniform manner right now 
in manned aviation. There should be that equivalent kind of 
level of management and oversight for unmanned aviation. And 
that is something that will not only actually help safety, but 
it is also something that will keep from blocking the absolute 
potential massive growth for this industry.
    And that applies for everybody here. It is not just about 
drones. It is about commercial space. It is about all kinds of 
different applications. We need one consistent application of 
the way that airspace is managed.
    Mr. Westerman. Let me follow up with Mr. Cassidy. You 
advocated for no-fly zones over sensitive fixed-site 
facilities, which I totally understand that. There are a lot of 
places, even in rural areas, where you would want no-fly zones. 
But how do you suggest that you have no-fly zones yet you don't 
create this patchwork of regulations that you discussed? Is it 
possible to do that with technology where you just block out 
the vehicles from certain areas?
    Mr. Cassidy. Thank you for the follow-on question.
    I think the answer to that is yes. And a little bit of it 
is kind of rooted in what we just talked about before, and that 
is working with the airspace authority, the FAA, who has the 
responsibility over navigable airspace. But the other part is 
about performance-based standards and safety regulations that 
dictate, look, if you have a very complex operation and you are 
going to be working around a city and that city has certain 
sensitive places, you have to have a demonstrated level of 
system performance that can assure that you won't stray too far 
from where you are telling people that you are going to be.
    So I think part of it is kind of regulatory authority, but 
also certainly part of it is technology and defining clear 
standards that tell us what level of accuracy, what level of 
precision do we have to have to conduct safe operations, 
especially around those sensitive areas.
    Mr. Westerman. Mr. Whiteside, did you have a comment?
    Mr. Whiteside. Yes, thank you.
    One item that we really haven't talked to today is along 
these lines of standardization. Right now in the United States, 
I think when I tracked the laws, we are tracking something like 
315 laws throughout the United States that have some sort of 
potential State-level implication on drone regulations. And we 
get into real issues when I speak to constituents in Oregon 
about: What am I going to do with a drone over my backyard? 
Where does my privacy or where does my airspace begin?
    So we really have to deal with the idea and the concept of 
Federal preemption and get that very clearly defined for the 
State legislatures and the communities that are out there that 
are wondering what is this all going to mean too from a 
standardization and implementation standpoint, which is real in 
the eyes of the people that are around this country.
    Mr. Westerman. And just a few seconds left.
    Mr. Fayard, thank you for being in Little Rock. I would 
like to be able to see you get into even some smaller cities. 
Maybe I can follow up with you later on that.
    And, Ms. Yak, just a quick question. Can you describe where 
the Tech Center's role begins and ends in research and 
development and at what point technology or programs are handed 
over to the FAA's operation? You may have to answer that off 
the record and submit it. My time has expired.
    Mr. LoBiondo. Go ahead.
    Ms. Yak. OK, because it is my favorite topic.
    Our research begins at the ground, looking at pavement. It 
moves into the air, through air traffic management, new 
entrants, like UAS, commercial space. It works on the aircraft 
from flier safety to the structural. It affects weather 
forecasting. We do weather. We do icing. We do human factors 
research.
    So we do research across the whole gamut of the air 
industry, and our goal is to understand it better and get it 
out there working as quickly as we can.
    Mr. Westerman. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thanks.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman, and I was very 
interested in all the testimony.
    To the witnesses, I have a district that includes the San 
Gabriel Mountains in L.A. County. We have had tremendous issues 
with drought, and we had a very heavy forest fire threatened 
homes and evacuated thousands of people.
    The Los Angeles County Fire Department was forced to stop 
aerial firefighting due to presence of private air drones. What 
can you say about that? What is being done or can be done to 
prevent or stop the drones from emergency sites where they 
cause interference?
    Mr. Gibson. Well, ma'am, if you were talking specifically 
firefighting, we work very closely with the Department of the 
Interior. Mr. Mark Bathrick is a good friend of mine. He runs 
their aviation section. And in fact we are working on a 
challenge that they have now. But we work with them. I know 
AirMap also has worked with them to put out airspace warnings 
much more quickly than it has been done in the past to tell 
everybody to stay clear.
    And then also, if you are even alluding to law enforcement 
and first responders and those kind of things, we are also 
pursuing ways of getting notification out through air traffic.
    Mrs. Napolitano. It would be nice in California. We have 
the public access television channels, all cities have them, 
that you might be able to send a message about how it should be 
operating under circumstances that might threaten other folks.
    Then I recognize the use of unmanned systems by first 
responders provides an effective opportunity to help them, the 
firefighters, police, and emergency personnel. Has the Federal 
Government helped or hindered the ability of local and State 
agencies to use unmanned systems?
    Mr. Gibson. I am sorry, ma'am, what was the question?
    Mrs. Napolitano. Has the Federal Government helped or 
hindered the ability of local and State agencies to use 
unmanned systems?
    Mr. Gibson. Ma'am, I think we have continued to work to 
improve the ability of first responders to use the vehicles as 
a necessary tool. We know the value involved. Behind me is Andy 
Nahle, who is one of my new detailees. Besides FAA, he is a 
Reserve police officer, and I have asked him over the next year 
of his detail to me to improve our ability to support them.
    Mrs. Napolitano. Every State has their own laws, so are you 
finding it helpful to work with the States?
    Mr. Gibson. Oh, yes, ma'am, clearly. We have extended 
information through our counsel's office on some of the 
preemption issues that were mentioned, and we are working 
additionally some of those issues, I think, through our 
stakeholder engagement, like the DAC.
    Mrs. Napolitano. One of the questions that I usually ask 
is, what is your budget? And do you have an adequate budget to 
be able to look at the technology coming in and all the things 
that you are tasked to do?
    Mr. Gibson. Ma'am, thanks for that question.
    I can't imagine any organization that says they have enough 
resources. But to our discussion today, we have the safest 
aviation operation probably in the world, again, the density, 
we have been doing that for decades.
    Mrs. Napolitano. Yes, but this is a growing industry.
    Mr. Gibson. Exactly. But we have had to take the same 
resources we had for traditional aviation, no one has relieved 
us of those duties and obligations, and yet now we have a whole 
new----
    Mrs. Napolitano. Precisely. Do you have enough budget?
    Mr. Gibson. It is not just money. I think we need help in 
IT because everything is going to digital. We do need 
assistance in that area. But I am not prepared to walk through 
the dollars and cents or manpower at this time, ma'am.
    Mrs. Napolitano. Yes. In the industry, I assume the 
industry gives you information as to what their findings have 
been so you can have more information on them.
    Mr. Gibson. Yes, ma'am. Yes. We work closely. I think it is 
an interesting balance, public-private partnerships. There is a 
lot of money that is coming with this in the sense of private 
equity and venture. But we still have to partner with them, so 
we need to move along quickly as well.
    Mrs. Napolitano. And to the rest of the witnesses, do you 
have any training programs so people know if they are 
interested in joining the industry? Classes? Schooling?
    Mr. Cassidy. Yes. Go ahead, Brian.
    Mr. Whiteside. Yes. We have a program that we have stood up 
in the U.S. We have already trained over 1,000 pilots in 
Australia. And then we are working with universities, high 
schools, insurance providers, et cetera, in training people on 
how to do drone operations safely and comply.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Thank you, gentlemen, ma'am.
    Mr. LoBiondo. Mr. Lewis.
    Mr. Lewis. Thank you, Chairman.
    I am intrigued by a couple of things I have heard and read 
here. First of all, Dr. McNeal, with the idea of Federal 
preemption and letting municipalities play a larger or lead 
role in UTM, we get into all sorts of issues here. We get into 
interstate commerce clause issues and where the Federal 
Government nexus is. You can go back to Lopez or Rapanos, pick 
your favorite Supreme Court precedent. And if you live in a 
community like I do, Minneapolis-St. Paul, where you are right 
next to another State, you are going to have cross-border 
jurisdiction.
    You know, in your testimony you mentioned the explosive 
growth of the unmanned aerial aircraft systems, and it is true 
in my community as everyplace else.
    Is your point that the local governments could do a better 
job or is it a legal point, I guess?
    Mr. McNeal. Thank you, Congressman. And it sounds like you 
are a lawyer, all the references there.
    Mr. Lewis. No, but I played around on the radio for a 
number of years.
    Mr. McNeal. You do a great job, Congressman.
    So the point is a very simple one. I think that as unmanned 
aircraft continue to proliferate, the FAA will be unable to 
know the constantly changing conditions in local environments. 
And so we need a mechanism to draw from the resources of State 
and local officials who know best what is going on in their 
communities. But then I also share Mr. Cassidy's concern that 
we need a way to make sure that is uniform and understandable.
    So I start from the premise that the future that we will 
look at will be one of UTM and that State and local officials 
should have the ability to make reasonable time, manner, and 
place restrictions that they input into that system.
    The reason for that is very simple. We take Congresswoman 
Napolitano's point about local fires. When we think in our 
local communities, we go to Minneapolis-St. Paul, the 
Minneapolis-St. Paul police departments know about that vehicle 
fire, they know about the fact that the local county fair has 
come to town. The Federal Government does not know about that. 
In fact, there are 70,000 wildfires a year of which the FAA 
only puts up 7,000 TFRs. They know nothing about local first 
responder activity. They know nothing about county fairs and 
amusement parks and whatnot.
    Mr. Lewis. So your view, to use a crude analogy, is if, for 
one reason or another, States actually build interstates, they 
probably would get them to meet at the border.
    Mr. McNeal. I think the easier analogy, Congressman, I like 
that one, though, is that if we expected the Federal Department 
of Transportation to make rules about which street corners got 
stop signs and which ones got yield signs, we would move 
nowhere.
    Mr. Lewis. OK. Yeah. I have got to move on. I am certain 
Mr. Cassidy wants some sort of uniformity there as well.
    But I also am intrigued with Mr. Fayard's service to these 
underserved markets without some direct EAS funding in some 
cases. I am intrigued by this, and it certainly sounds like a 
wonderful business plan. The first question that pops into my 
mind, though, is why haven't the legacy carriers done this? Why 
leave it to FLYGLO?
    Mr. Fayard. Well, I think, if you look at the legacy 
carriers, like a decade ago the legacy carriers decided to 
focus on making money and not so much market share. So when you 
look at the communities and the way the model legacy carrier 
operators with the very large aircraft that are--you know, 
there is some labor relation situations thrown in there as 
well.
    But if you look at--again, I made this point earlier--the 
gauge of aircraft is consistently going up. So you are 
approaching 100 seats as the average gauge of an airplane. 
These markets that we are in, we fly 30-seat aircraft, so these 
markets were not necessarily able to operate under a 50-seat 
aircraft, they are certainly not capable of a 100-seat 
aircraft, of making that a profit.
    Mr. Lewis. So you are saying it wasn't a case of market 
failure, but as long as there was no great market discipline 
for the legacy carriers to field smaller aircraft if they 
were----
    Mr. Fayard. That is correct. And there is a market, and I 
will give you as one example quickly, before we started our 
flight from Shreveport to New Orleans, the average O&D per day 
on that market was something like 1.2 people. Our first flight, 
we had 13 people. So statistics can only take you so far, and 
in this business, until you put the aircraft into the market, 
it is hard to say how big that market really is.
    And if you want to look at--I can tell you, you can look 
and say, well, New York to L.A., we know what that is because 
they have O&D, et cetera. Most of our routes have been unserved 
for, in some cases, over a decade. So we are going back into a 
behavioral changing pattern where people say, well, shoot, it 
is that drive, 7 hours, I guess I am just going to make or I 
just won't go. And obviously, MSP, where you are, it is a very 
large operation, a very large hub, your options are almost 
endless.
    Mr. Lewis. Yeah. But there is a number of rural airports in 
mid-market and very small airports in the Midwest that might 
have an interest in this.
    Thank you so much. I yield back.
    Mr. LoBiondo. Mr. Lipinski.
    Mr. Lipinski. Thank you.
    I know you have been here almost 2\1/2\ hours. Thank you 
for your testimony. I will try to make this pretty quick.
    Mrs. Napolitano talked about issues and problems that UAS 
could cause in disasters, but they can also be very helpful 
when there is a disaster. But in order to make UAS a viable 
technology to fill these roles of being helpful, being that 
aerial coverage to see what is going on, there are some 
situations where operators need to quickly obtain temporary 
waivers from certain restrictions for flight rules.
    So in the Extension Act, section 2207 directed FAA to 
publish guidance and procedures for processing of exemptions to 
allow both public and civil operators to operate UAS in 
response to emergencies. The FAA had 180 days to develop this 
guidance, but it has not yet been issued.
    So, Ms. Yak, can you give us a timeline for producing the 
process and guidance to operators?
    Ms. Yak. I am sorry. That is not an area that I am 
responsible for. I do the research.
    Mr. Gibson, do you have any information on that?
    Mr. Gibson. Sir, I would probably prefer to take it for the 
record. But we have worked on that. I think we were better 
placed than we were before. But in reference to the report, I 
will have to get back to you, sir.
    Mr. Lipinski. Well, I certainly appreciate it. This is not 
the first time I have raised this. And as I said, it is 
overdue, and I think it is something we really need to--FAA 
really needs to get moving on, so----
    Mr. Gibson. Yes, sir.
    Mr. Lipinski. The other question I had, Mr. LaMalfa brought 
this up, others have brought it up, the issue of somehow 
fencing off certain areas from where UAS can go. And I know 
AirMap has your geofencing. I want to throw another possibility 
out there and see what the possibilities are.
    A fixed counter-drone technology, something ground-based, 
maybe a radio frequency that could disrupt the communication, 
is that a possibility? Is that something that can work along 
with geofencing? Where does that fit into fencing off certain 
areas from UAS?
    Mr. Gibson. Sir, that falls in line, to some extent, with a 
number of the security issues that we are taking, 2209 with the 
airspace, 2206 in and around airports. And, yes, we have seen a 
number of technologies, a number of folks who have come to us. 
It is, in my mind, not going to be one silver bullet. It is 
going to be a layered approach. The more opportunities you 
have, the safer we will be.
    But our report will be done probably early fall, late 
summer on some of those standards, but we have looked at radar, 
RF, EO as well, geofencing, and the other manufacturing 
technologies to help keep folks out. We have seen everything 
from jamming to WiFi interception of the signal.
    So there are a number of technologies, and that is why we 
are working closely with DOD, which has had this problem for 
some time, and DHS, as far as making sure we are talking across 
each front in our exercises that we are doing.
    Mr. Lipinski. So you are looking at all those and you 
will----
    Mr. Gibson. We already have in many cases, yes, sir, and I 
know DHS even has another large exercise or test, if you will, 
coming up, partnered with the Army in New Orleans mid-month.
    Mr. Lipinski. And when do you expect----
    Mr. Gibson. Well, our report, we are going to conclude 
Dallas at the end of the month. Then we have a lot of 
composition and review that we have to do on the data. We are 
hoping by early fall that that will be ready for submission. I 
think our timeline for 2206 is the end of December, but I think 
we will be a few months ahead of that.
    Mr. Lipinski. All right. Thank you. I yield back.
    Mr. LoBiondo. Thank you.
    Coming back to the Tech Center, Ms. Yak, we talked about 
cybersecurity a little bit today, and it certainly has become a 
growing risk affecting businesses and consumers. We receive 
daily reports of cyber attacks being carried out by both 
individuals and state actors.
    Very fortunately, up to this point in time, the aviation 
industry has yet to experience a cyber catastrophe. In this 
unclassified setting, could you tell us anything about how the 
FAA and the work being performed at the Tech Center is 
addressing cybersecurity threats in the National Airspace 
System, and what do you think is required to stay ahead of the 
problem of hostile actors?
    Ms. Yak. Thank you, Chairman, for the question.
    I would divide that question into two parts in how we are 
addressing it. Earlier I mentioned the cybersecurity test 
facility and some of the work that we do in support of our 
information-monitoring capabilities as well as evaluating the 
tools and procedures for vulnerability assessments on our 
National Airspace System and our information systems, our 
mission support system.
    So we have a process in place that, utilizing those labs, 
we will check for vulnerabilities, we will assess risk against 
those vulnerabilities, and then we will start testing what the 
mitigation solutions are from a system perspective, and then we 
will test that out in the laboratories.
    Now, if we move over to the aircraft itself, we are looking 
at the aircraft because that is becoming more and more IP-based 
also, and we are looking to put the same type of structure in 
place for the aircraft system. Again, assessing 
vulnerabilities, looking at the risk, and doing mitigation for 
protection.
    We have partnered up with the Department of Homeland 
Security on their cybersecurity initiative on the aircraft, and 
we are sharing resources, tools. And DHS has actually gotten us 
a Boeing 757, which is located on our ramp and is now a test 
article for that type of testing. So we look at it from an 
aircraft perspective and we also look at it from a system 
perspective.
    Thank you.
    Mr. LoBiondo. Thank you.
    We got everybody? Mr. Webster, you OK? OK.
    So this was extremely informative and helpful, I believe. 
To all of our witnesses, thank you for being here. Thank you 
for your expertise and what you bring to help solve the 
problems.
    And the committee stands adjourned.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                  [all]
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
